<html>
<title> - DISASTERS AND THE DEPARTMENT OF HOMELAND SECURITY: WHERE DO WE GO FROM HERE?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 DISASTERS AND THE DEPARTMENT OF HOMELAND SECURITY: WHERE DO WE GO FROM 
                                 HERE?

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





                    U.S. GOVERNMENT PRINTING OFFICE

28-262 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Chertoff, Hon. Michael, Secretary, Department of Homeland 
  Security.......................................................     8

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Boozman, Hon. John, of Arkansas..................................    54
Brown, Hon. Corrine, of Florida..................................    57
Carnahan, Hon. Russ, of Missouri.................................    62
Costello, Hon. Jerry F., of Illinois.............................    75
Cummings, Hon. Elijah, of Maryland...............................    79
Millender-McDonald, Hon. Juanita, of California..................    86
Ney, Hon. Bob, of Ohio...........................................    88
 Rahall, Hon. Nick J., II, of West Virginia......................    97
Salazar, Hon. John T., of Colorado...............................    99
Tauscher, Hon. Ellen, of California..............................   101
Young, Hon. Don, of Alaska.......................................   103

              PREPARED STATEMENT SUBMITTED BY THE WITNESS

Chertoff, Hon. Michael...........................................    63

                       SUBMISSIONS FOR THE RECORD

Ney, Hon. Robert, a Representative in Congress from Ohio:

  Exchange of letters with Lieutenant General Carl A. Strock, 
    Commander and Chief of Engineers, U.S. Army Corps of 
    Engineers....................................................    93
  Photos.........................................................    95

 DISASTERS AND THE DEPARTMENT OF HOMELAND SECURITY: WHERE DO WE GO FROM 
                                 HERE?

                              ----------                              


                      Thursday, February 16, 2006,

        House of Representatives, Committee on 
            Transportation and Infrastructure, Washington, 
            D.C.
    The committee met, pursuant to call, at 1:30 p.m., in Room 
2167, Rayburn House Office Building, Hon. Don Young presiding.
    Mr. Young. The Committee will come to order.
    Before I start my opening statement, I would encourage the 
Ranking Member, myself, and Mr. Shuster and Ms. Norton to make 
opening statements, and I would prefer the rest of everybody to 
actually ask questions. It is late in the day and I think many 
people would like to have this hearing completed as soon as 
possible and get the information needed. So I respectfully 
request that.
    Mr. Secretary, thank you for being here today.
    Mr. Oberstar. Mr. Chairman, I think we have agreed to that 
on our side.
    Mr. Young. Thank you. And I hope my side has agreed too.
    I will start all over again, Mr. Secretary. Thank you for 
being here today. You have the distinct honor of being the 
first Secretary of Homeland Security to testify before this 
Committee. Even though this Committee created all the major 
transportation security laws, we have jurisdiction over FEMA, 
emergency management, the Coast Guard, we have been sensitive 
to the demands on your time and have not required you to 
personally appear before this Committee. However, the 
Department of Homeland Security and FEMA are so broken with 
respect to disaster management that we have no choice but to 
bring you before Committee so we can try and hopefully fix this 
mess.
    The House Katrina Task Force report makes clear that the 
Federal Emergency Management System is in fact broken. Under 
the current system, most of the key disaster authorities belong 
to the Secretary of Homeland Security. Those authorities and 
decisions should be with the emergency management personnel. 
Ultimately, it takes the President not get all Federal 
departments to respond, and the President needs solid, 
professional advice to keep the right choices.
    Whether FEMA stays in DHS or not, we have to put FEMA back 
together again. FEMA has been weakened and responsibility has 
been spread out all over DHS, being prepared responsibly in one 
place and response in another. We need to rebuild FEMA'S 
professional workforce and emergency response teams. We need to 
improve logistic capacity and the ability to communicate in a 
disaster. We also have to do a better job building State and 
local emergency management capacity. Since 9/11, we have spent 
almost $15 billion in equipment, but when we have a big 
disaster we can't get it where it is needed.
    We also have to resolve the tension between our all-hazards 
emergency system and our terrorism-only preparedness grants. 
These programs, as implemented, have driven a wedge between 
many State homeland security advisors and State emergency 
management directors. The Secretary's recommendation to 
strengthen FEMA'S professional workforce, response teams and 
communications ability is a step in the right direction, but 
these recommendations only address a fraction of the problems 
revealed by Katrina's report.
    I want to thank Chairman Shuster and Congressman Taylor for 
their hard work on the House Katrina Task Force. The report you 
help write is a hard-hitting, comprehensive review of what 
worked and what failed. As the Committee with primary 
jurisdiction over emergency management, the Katrina report will 
be invaluable for guiding our efforts to draft legislation to 
fix our disaster system.
    Next week, Chairman Shuster will hold hearings in 
California and Missouri to solicit advice and recommendations 
from State and local officials and disaster professionals. My 
goal, our goal is to get the best advice we can and build an 
emergency management system that works for all disasters.
    Again, thank you, Mr. Secretary, for being here today, and 
I welcome your testimony.
    Before I conclude, I made a statement on the House floor, 
when the homeland was secure. I made the statement that the 
worst terrorist that ever existed is Mother Nature. More human 
life, more property, more disruption has been created by Mother 
Nature than even all the wars that mankind has created. And 
people don't recognize that.
    And I said at that time we must not diminish the ability to 
respond to disasters created by the worst terrorist in the 
world, and that is Mother Nature, and make sure that we do 
concentrate and be prepared for that. Not many people listened 
to me; most people voted for the homeland security bill, and I 
have been proven correctly.
    This is not your fault, Mr. Secretary. This is the fault of 
the organization you were given. Now, it is your responsibility 
to recognize the statement I made and recognize that the worst 
terrorist in the world is Mother Nature, and recognize we must 
be prepared for the good of this Nation and the people.
    At this time I will recognize the gentleman from Minnesota, 
Mr. Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman. You stated the case 
very well and very thoughtfully, and recited the history, which 
I will go into in a moment. But I would characterize this 
hearing as a tale of two departments and a tale of two 
secretaries.
    On Tuesday, September 11th, Secretary of Transportation 
Norm Mineta was meeting in his office with the Belgian Minister 
of Transport to discuss the upcoming US-EU negotiations. In the 
course of that meeting, his chief of staff, John Flaherty, 
stepped into the office and whispered into his ear. Secretary 
Mineta jumped up, stepped outside, and learned that some type 
of aircraft had crashed into one of the Trade Towers in New 
York City. It was only preliminary information, but FAA 
Administrator Jane Garvey was in the meeting with Secretary 
Mineta. He dispatched her to get the details and to stay in the 
office and just fill him in on everything.
    He went back into the meeting and informed the Belgian 
Minister that there had been a terrible accident. Moments 
later, he got another interruption from his chief of staff; he 
stepped out again and learned that an aircraft was approaching 
the second tower, and he watched as it impacted. Immediately he 
called American Airlines. He called the Chief of Operations of 
FAA, asked if American Airlines could account for all of its 
aircraft, asked if other airlines could account for all of 
their aircraft. He didn't wait for a committee or a commission 
or a directive from the White House, he just went right 
directly to carry out what he knew was his responsibility.
    He had set up a structure within the Department of 
Transportation that, when an incident of any transportation 
magnitude occurs, the Secretary is immediately informed, the 
Department goes into an information-gathering mode, monitors 
press reports, sets up the personnel who are already designated 
to accommodate the surge of inquiries and of information, and 
centralize that information and direct it to the Secretary and 
his Chief of Staff.
    Then he decided that he needed to talk to the White House 
about this matter, decided that not only he needed to contact, 
but to get to the White House and go into the secure room and 
to take control of the situation. He directed Monty Belger and 
Administrator Garvey to find out where all aircraft were. It 
was alarming, they couldn't account for all aircraft. All 
airlines could not tell the Department and the FAA where all 
their aircraft were. Some could not be contacted. There might 
be more attacks coming.
    By then he was convinced this was not just a coincidence, 
but an attack, and decided that the air space had to be cleared 
to stop further attacks. That took one hour. He didn't look 
around for blame, didn't look around for underlings to finger. 
He acted, decisively. Within that hour, he gave the most 
monumental order in the history of aviation in the United 
States: to clear the domestic air space of all civil aviation 
aircraft. That had never been done before. And all air traffic 
controllers got to work and took 4,500 commercial aircraft out 
of the air space of the United States, so that all screens were 
dark within two hours.
    Also, as Secretary of the Department in which the Coast 
Guard was located, he oversaw the mass evacuation of 350,000 
people from Manhattan. In addition, he oversaw the largest 
maritime evacuation conducted in the history of the United 
States. And then over the next few days worked with all the 
modes of transportation and reopened the roads, the tunnels, 
the bridges, the harbors, and the railroads to get essential 
supplies into the area.
    That was without notice, without anybody telling, without 
the National Weather Service, without the TV news channels 
reporting that this massive force of destruction was on its 
way, as the Chairman said, Mother Nature was headed our way. 
You knew about it. The whole world knew about it.
    I have to offer a disclaimer here. My wife was born and 
raised in New Orleans. We watched with very intensive interest. 
Her two brothers were still living there.
    You get the information, and what happens? You go off to a 
conference. A very important conference, I am sure, on avian 
flu. But you should have been at your point of operation, 
directing activities, making sure that everything was in place. 
You had time to do this. The Secretary of Transportation had no 
time. He had to make a split-second, in effect, decision. And 
he did the right thing. He made the right choice at the right 
time. He mobilized people.
    I will further add that he has the experience; he served 
for 20 years on this Committee, one of the most knowledgeable 
people in transportation. But he knew what had to be done and 
he moved on it.
    Now, when this Department of Homeland Security was created, 
I opposed moving FEMA to the Department, as the Chairman did, 
opposed moving the Coast Guard into it. Moving FEMA into this 
new Department of Homeland Security without a clearly defined 
Homeland Security role is, in my judgment, a mistake. There is 
no delineation of what is homeland security compared to floods, 
hurricanes, blizzards, earthquakes, tornados. When your home is 
under water up to the eaves, are you going to wonder where is 
FEMA? Are they on a mission looking for terrorists or are they 
going to be on a mission looking for your lost children and 
rescuing you from the rooftop of your house? That is what I 
said in Committee, on the House floor.
    We didn't prevail, Mr. Chairman, unfortunately. And now we 
have a mess.
    I am not among those saying the Secretary ought to resign. 
We ought to hold him here. We have got to keep him accountable 
and make sure that mistakes, grave mistakes that lead to loss 
of life, avoidable loss of life, are corrected.
    Thank you, Mr. Chairman.
    Mr. Young. Thank you. I will say one thing about your 
statement, one thing I didn't agree with about the Secretary of 
Transportation, and I hope you understand this, Mr. Secretary. 
My people in Alaska were out in the woods, and there were no 
planes flying and weren't real happy with the Secretary, 
believe me. And that actually happened for two days, until I 
got him to lift the restriction so they could get out of there. 
There were no planes flying. You can't realize it in Alaska, 
when we don't have many roads, with no air traffic, what it 
sounds like.
    Mr. Shuster?
    Mr. Shuster. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for making yourself available 
to us here in the Committee.
    This hearing is the first of many in the coming weeks in 
our effort to improve the Nation's ability to manage disasters 
of all kinds. Hurricane Katrina revealed problems in our system 
at all levels of government that have to be addressed, and this 
Committee has a large role in guiding those efforts to fix 
those problems. Hurricane Katrina showed us the disaster system 
is broken. It must be a top priority of this Committee to fix 
the Federal Emergency Management System, and the problem is the 
Federal system is much larger than FEMA, and just retooling 
FEMA alone won't correct that problem; there needs to be more 
from the top down.
    As we listen to the Secretary's testimony today, and as we 
begin to draft our own legislation, I believe we should keep in 
mind five critical reform principles. First, catastrophic 
disasters require presidential involvement to mobilize the 
assets of the entire Federal Government, and the President 
needs solid professional disaster advice to make the right 
decisions. The Homeland Security Act and the National Response 
Plan put that responsibility into the hands of the Secretary.
    Yet, I am afraid we created a structure where the Federal 
Government's top disaster official will likely never be a 
disaster professional, because the Department's number one 
priority is preventing terrorism, as it should be, it is not 
responding to disasters. Given the experience of the last three 
years, it is clear that disaster management needs to be 
somebody's top priority.
    Second, active duty DOD forces need to be involved quickly 
and in support of civil authorities. In the case of Katrina, it 
took several days for DHS to negotiate DOD's mission 
assignment. As a result, significant active duty forces did not 
arrive until after the evacuation of both the Superdome and the 
Convention Center. Time is of the essence in a disaster.
    Third, the four components of comprehensive emergency 
management--preparedness, response, recovery, and mitigation--
need to be closely integrated and jointly managed. It is 
important to note that FEMA'S core mission was never limited to 
natural disasters or to response and recovery only. Being a 
native Pennsylvanian, I am quite familiar with the incident 
that launched the creation of FEMA.
    The failed response to the nuclear accident at Three Mile 
Island prompted President Carter to unite the preparedness, 
response, recovery, and mitigation functions into a single 
independent agency. The comprehensive management of nuclear 
accidents, terrorism, natural disasters, and emergencies of all 
types was FEMA'S core function from day one, for the simple 
reason that it doesn't work any other way. During Katrina, we 
saw what happens when preparedness is too far removed from 
response.
    Fourth, we need a strong professional disaster workforce 
and robust disaster response. Katrina has taught us that the 
key to a successful response operation is to invest in our 
disaster professionals. We have to train them, exercise them, 
equip them, and help them build effective working relations 
with their State and local partners. The Secretary's retooling 
FEMA initiative helps address these issues. We also have to 
rebuild and, in some instances, develop capabilities that we 
have never had before.
    For example, FEMA needs to develop or have access to a 
logistics system that can move extremely large amounts of 
resources and pinpoint their location at any time. FEMA also 
needs a communications capability that is portable, survivable, 
and allows for the integration of diverse systems. Following 
Katrina, we learned that FEMA'S national response teams had 
lost their dedicated communications packages to budget cuts, 
and that many team members were not even issued Blackberrys. I 
am astonished that our readiness deteriorated to such a state.
    Finally, we must resolve the tension between our all-
hazards emergency management system and terrorism preparedness 
and response.
    I look forward to hearing from you today, Mr. Secretary, 
and to working with you as we move to address this important 
issue.
    Thank you. I yield back.
    Mr. Young. Thank you, Mr. Shuster.
    Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman. I very much appreciate 
your calling this hearing.
    And I want to thank the Secretary, who has had a very long 
day, just come from our other committee, Homeland Security, and 
I want to say that as Ranking Member of the FEMA Subcommittee, 
I conceive my role as problem solver, and not here to offer yet 
another thrashing to the Secretary.
    And part of this is because I have some sympathy for you, 
Mr. Secretary. Thirty years ago another president asked me to 
come in and manage an agency. That agency had been so troubled 
it had been all in the newspapers. When it comes to what you 
are faced with, I don't expect you to be in anything but a 
trial and error situation for years to come, even years after 
you leave. My criticisms are guided by the where do we go from 
here part of the title of this hearing and my deep concern for 
the plan you have, at least as I understand it, which, as I see 
it, heads FEMA for very deep trouble.
    First of all, how do we understand what Katrina tells us? 
Katrina was so serious that it goes well beyond the human cost 
and the economic cost of the most catastrophic natural disaster 
in American history, because Katrina compels the equally 
serious conclusion that the Country lacks the capacity to 
either prepare for or respond to a terrorist attack, which 
stimulated the establishment of DHS in the first place.
    I say this because, tragically, we must, I now think, face 
the fact that Katrina was a dress rehearsal for a terrorist 
attack, with one compelling difference. Al Qaeda will not 
perform, like our outstanding national weather service, with a 
three day warning. The all-hazards approach, Mr. Secretary, I 
think drowned in Katrina's waves and demonstrated that the 
United States could not respond to disasters that, unlike 
terrorist attacks, are entirely predictable, come every year. 
That is why the bipartisan leadership of this Committee has 
called for making FEMA the nimble, independent agency, 
accountable directly to the President of the United States that 
it was when it was most effective.
    Why would we or why do I focus on structure at all? Because 
the problems start with the structure of FEMA. For example, 
there were so many bad actors and bad structural barriers that 
the threshold, the threshold most obvious actions were not 
taken. The National Response Plan, in anticipation of the 
hurricane, was not activated until three days late, despite the 
weather report, so that resources and plans were not in place 
before the storm hit landfall. No one even designated the storm 
as a catastrophic event in time, which would have triggered a 
proactive response instead of waiting for overwhelmed State and 
locals to request resources through the proper channels.
    Most of all, we need to focus on structure, Mr. Secretary, 
I think, because the proposed structural response from DHS 
would make things worse. I say that because the response 
appears to be to dismantle FEMA. Already this dismantling was 
well along the way before Katrina, eroding some of FEMA'S 
preparedness mission by shifting programs like fire grants and 
emergency management performance grants, and transferring 
personnel and budget.
    Now comes the coup de grace, with Secretary Chertoff's 
second stage review, which transfers from FEMA altogether any 
remaining preparedness programs and creates a new preparedness 
directorate under yet another bureaucracy. The entire emergency 
management community of experts agrees that transferring 
preparedness out of FEMA would undermine FEMA'S ability to 
respond. DHS's inspector general warns that disaster 
preparedness, response and recovery are intricately related and 
rely on one another for success.
    The Secretary can't have it both ways. Either he wants all 
of the agencies remotely connected to disasters in one agency 
because their tasks are interdependent, or they can be 
disaggregated and work even better. Members from very different 
parts of the political spectrum, from Senator Trent Lott to 
Congressman John Dingle, have said the same thing: FEMA cannot 
be fixed inside the DHS belly, but should return to its 
independent status, reinforcing this Committee's view.
    Mr. Secretary, I want you to know I am on the Homeland 
Security Committee. I supported consolidation based on my own 
Federal experience. But I am not a fool who refuses to learn 
from actual experience. That experience tells me that the only 
way to save the all-hazards approach is to let FEMA be FEMA, 
not DHS's stepchild. The Nation's increased focus on terrorism 
preparedness is absolutely indispensable, but it must be in 
addition to, and not at the expense of, FEMA'S far more likely 
and far more frequent natural disaster responsibilities.
    Thank you very much, Mr. Chairman.
    Mr. Young. I thank the good lady for her statement.
    Mr. Oberstar.
    Mr. Oberstar. Mr. Chairman, I ask unanimous consent that 
all statements, except those four agreed upon in the bipartisan 
agreement, be included in the record and any supplemental 
material accompanying member statements.
    Mr. Young. Without objection, so ordered.
    Just a short break. I am now going to turn the chair over 
to Mr. Shuster, and he will conduct the rest of the hearing.
    Mr. Secretary, again, thank you for being here. I believe 
this will be constructive, and I hope after this last hearing 
is over you can go back and do the charge you have been charged 
with.
    Mr. Shuster.
    Mr. Shuster. [Presiding] Thank you, Mr. Chairman.
    Again, welcome, Mr. Secretary. You can proceed with your 
opening statement.

    TESTIMONY OF THE HONORABLE MICHAEL CHERTOFF, SECRETARY, 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Chertoff. Thank you, Congressman Shuster. I want 
to thank Chairman Young and Ranking Member Oberstar for 
inviting me before the Committee. I am pleased to be the first 
Secretary of Homeland Security to be here, not that there were 
that many before me. And I am delighted with the fact that we 
are approaching this hearing with an idea of what can we do to 
make things work better in the future and take a constructive 
approach to this.
    I want to begin by saying that obviously Katrina was an 
unprecedented disaster, and we have all been through a process 
of learning lessons. We have had people express their views 
about what went right and what went wrong. I know we are going 
to have further expressions of views both from the President's 
own view that he has commissioned and from the Senate review 
which has not yet been completed.
    Some of what I am outlining about the way forward with FEMA 
reflects lessons already learned and incorporated, but, 
frankly, I am withholding some of the recommendations until we 
get the final reports that come in from the President's review 
and from the Senate review hopefully within the next few weeks.
    I, of course, have very much on my mind the images that I 
saw in Katrina, and vividly remember, will never forget, the 
frustration and difficulty during those days of not seeing the 
kind of response I think this Department owed the people in the 
Gulf Coast. I also have another vision ahead of me, and it is 
June 1, hurricane season, and a very clear recognition of the 
fact that we have to be prepared to do a better job this 
hurricane season than we did last hurricane season.
    Year in, year out there are challenges. Last year was an 
exceptional year of challenges. It may not be met again this 
year by quite the same degree of catastrophe, but it may be; 
and, therefore, we have to get about the business of doing what 
we can to repair matters as quickly as possible.
    Congressman Oberstar talked a little bit about September 
11th and the Department of Transportation, and it put me in 
mind of a couple of observations. When I was in my confirmation 
hearing in the Senate a little over a year ago, Senator 
Bennett, who had been in the Administration when the Department 
of Transportation was formed, said it took five years for the 
Department of Transportation to become fully matured as an 
organization. And I think what he meant by that is that perhaps 
if 9/11 had happened in year two, it would have been very much 
more difficult for the Department to respond.
    I can tell you I was in Government on 9/11; I was at the 
Department of Justice. I was over at the FBI, in the Operations 
Center for the 20 hours immediately following September 11th. 
By coincidence, my deputy in Homeland Security was the deputy 
at Transportation. So we have very vivid recollections of the 
challenge that we faced in reacting to that particular 
emergency.
    Every catastrophe and every emergency is different. We want 
to learn the lessons from the past, but we also want to make 
sure that, as we move forward, we consider the full range of 
things, challenges that we might face. So let me take on I 
think what is a central question that has been raised in the 
opening statements: What is the role of FEMA and what should 
the role of FEMA be within the Department of Homeland Security?
    I will tell you that about five months after I arrived on 
the job, I completed a second stage review in which we looked 
at all the elements of the Department, and we spent a lot of 
attention and a lot of time talking to people inside and 
outside the Department about FEMA. And I don't think it is a 
secret that there was not only opposition to the merger of FEMA 
into DHS by people on the Hill, there were people inside FEMA 
who did not want to have that merger happen. And some of them, 
I think, perhaps harbored the hope that the merger could be 
undone, and that may have colored the degree to which they 
willingly integrated themselves with the Department.
    I would draw, by the way, a contrast with the Coast Guard. 
The Coast Guard embraced the Department of Homeland Security. 
It retained its independent functioning as a component, but it 
willingly lent its experience and its devotion to the 
Department as a whole, and I think it is reflected in the 
number of people that are in the Coast Guard who now occupy 
positions of responsibility throughout the Department.
    One thing, though, I was clear on: we did have to be an 
all-hazards department. And anybody who suggested that the 
leadership of Homeland Security on my sixth month on the job 
wanted it to be a terrorism-focused department simply was not 
listening to what I was saying. I gave a speech in July and I 
said, in front of everybody, one of the critical lessons of the 
review is we are not where we need to be with preparedness. I 
told everybody in July of last year that I saw that problem, 
and I said we had to be an all-hazards department.
    And for that reason, within a matter of a few weeks, at the 
very beginning of August, for the first time, I invited 
emergency managers and Homeland Security advisors to come 
together in Washington and talk about what we needed to do to 
bind ourselves together and to make ourselves an all-hazards 
agency and an all-hazards system, Federal, State, and local, 
top to bottom.
    Why do I think it is important to be integrated and do it 
this way? First of all, the hazards we face have to be dealt 
with along a spectrum. It is true that in many occasions, in 
many instances we have to deal with hazards that come upon us 
that we can't prevent. We don't know how to stop hurricanes, so 
the entirety of our activity has to be focused on response.
    But there are other hazards we can prevent. There are 
hazards we can protect against and harden ourselves against. 
And I think it is only when we look at the full universe of 
hazards and deal with them comprehensively that we have the 
kind of intelligent program that give Americans the security 
they deserve.
    Second, I have to tell you it is often not going to be 
clear, when we have a disaster, whether it is natural or 
manmade. A hurricane is obviously a natural disaster. Bombs in 
a subway are obviously manmade.
    But a major power blackout, a major explosion at an oil or 
chemical factory with a large plume can be a terrorist act, it 
might be an act of nature. And we are not going to be in a 
position to necessarily know the answer to that in 24 or 48 
hours, so we cannot divide our response or divide our reaction 
to that kind of a catastrophe in advance. We have to be able to 
move across the full spectrum and we need to be able to 
coordinate our response in terms of law enforcement, in terms 
of protection, and in terms of response.
    On the other hand, it is clear to me that FEMA, as an 
operational agency, was weak when I came into the Department, 
and again I use Coast Guard as an example. Coast Guard was a 
strong functioning component, but one that was able to add 
value as part of a larger department. FEMA was not focused on 
its core operational mission. We did not have a twenty-first 
century logistical system. We did not have the kind of 
communications or the ability to scale up a call center of the 
kind you needed to deal with the scope of Katrina.
    And I will tell you this is not rocket science. These 
things exist and have existed for years, and it is simply a 
question of making a decision to bring those things and deploy 
them into the Department, and that is very much what we are 
about doing.
    So let me tell you what stage one of the way going forward 
is as far as I am concerned with FEMA. And I say stage two and 
talking about some of the more fundamental questions like what 
should FEMA'S role be with respect to long-term housing? What 
should FEMA'S role be with respect to recovery? What should be 
FEMA'S role be with respect to how health care is provided? 
Those, I think, are going to have to await some further 
reporting, some further recommendations. But the things that we 
need to do before this hurricane season, June 1, are the 
following:
    First of all, we have to actually integrate FEMA into the 
Department. That means two things: it means elevating it and 
completing the process of having its status equal with other 
components and focused upon its operational missions, but also 
part of a seamless provision of an operational picture so that 
we don't have a seam between what FEMA sees and does and what 
the Department sees and does. And part of that is building an 
integrated operational capability that will allow Coast Guard, 
Secret Service, all the other organs, and FEMA to see and have 
visibility into what everybody else is doing.
    Second, we have to have a twenty-first century logistics 
management system. And what we are going to do for this 
hurricane season, when we get the contracts done for shipping 
of commodities, is make sure that there is a requirement of 
visibility and location for all commodities in real-time as 
part of that contract.
    Why was that never done before? Well, it turns out that 
FEMA doesn't actually do its own contracts in this area; it 
goes and has the contracts done by other agencies. Eventually, 
FEMA has got to do its own contracts. Simply farming out the 
work to others who don't have responsibility doesn't make a lot 
of sense. So we are going to start by changing those 
contracting systems now.
    Claims management. We have got to enhance the ability of 
FEMA to scale up its telephone response resources far beyond 
what they were in Katrina. And we are currently putting in 
place contracts that would allow us, both on the Web and 
through the telephone, to get to a capacity of registering 
200,000 people a day.
    We also are developing a pilot program to move away from 
the traditional model of disaster recovery centers, where 
people come to us, and actually to give our workforce and our 
disaster assistance employees the tools to go out into the 
community and actually go to where the victims are, as opposed 
to making the victims come to us. Part of that is a recognition 
that FEMA has, for a considerable period of time, relied 
principally on volunteers as a disaster workforce. That is not 
going to work in a situation where we have a catastrophe, so we 
have got to actually create a core disaster workforce around 
which we can surge volunteers, but which has the capability 
full-time and professionally to do the job.
    Debris removal. We have a system now which favors the Army 
Corps of Engineers. We are beginning the process of correcting 
that, at a minimum equalizing the incentives so that we 
encourage municipalities to go to local contractors where they 
can get cheaper and more responsive service, while preserving 
the Army Corps for those things that either require immediate 
emergency access or immediate emergency response or some 
specialized engineering skill.
    Communications. We are acquiring additional satellite 
phones and satellite trucks to be able to get out into the 
field. We have created for the first time in FEMA and at DHS 
teams that can go out with fully contained communications 
packages and with the proper training to give us the kind of 
visibility that will not require us to rely upon second-or 
third-hand information.
    So these are some of the steps we are taking moving 
forward.
    One thing I do want to say, just to make sure the record is 
clear. I believe the changes that we initiated in the second 
stage review make sense. I believe that creating a preparedness 
directorate under an experienced manager with a focus across 
the entire spectrum makes a lot of sense.
    But I have to make clear for the record this was not done 
before Katrina. When Katrina came, we operated under the old 
system, and the old system failed. So I think we need to bear 
that in mind as we go forward.
    With that, I look forward to taking questions from the 
Committee and to engaging in discussion about these important 
matters.
    Mr. Shuster. Thank you very much, Mr. Secretary.
    I appreciate greatly that the Chairman is letting me chair 
this hearing, but two things I am going to adhere to is, one, 
the seniority rule when it comes to questioning, and the second 
is the five minute rule. If we get through questions and the 
Secretary still has time and there are further questions, those 
of you that want to stick around, we will do a second round of 
questioning. So I am going to adhere to the five minute rule 
strictly, and I am going to go to Mr. Coble for the first 
questions.
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Secretary, good to have you with us. At the outset, Mr. 
Secretary, it is my belief that many mistakes were made. New 
Orleans officials made mistakes. Louisiana officials made 
mistakes. U.S. Government officials made mistakes.
    Having said that, despite the well known consequences of a 
major hurricane hitting New Orleans and the weather forecast 
that I am told was available, why did the Federal Government 
wait, if in fact it did wait, until it confirmed that the city 
was flooded and start pulling boats, buses, and planes and 
military assistance together later rather than sooner?
    Secretary Chertoff. On Saturday, before the hurricane hit, 
the President declared an emergency, which of course opened up 
the legal ability to move all of that equipment forward and 
deploy it. That also, by the way, declared an incident of 
national significance. At that point the Department of Defense 
began to deploy its resources, at least what it thought was 
necessary, into the forward area. I think they went to Camp 
Beauregard.
    On Sunday there was a meeting of about 50 people, who were 
the leaders involved in Louisiana and Mississippi and the other 
States, at the regional headquarters in Washington. I 
participated in the meeting by video conference. At that time, 
there was a review of all the kinds of resources that were 
needed and Defense Department was plugged into the general 
preparation.
    Looking back, I think there was underestimation of one 
particular need, and that was the need for buses for a 
secondary evacuation. And I think it was that underestimation 
that led to a delay in the process. I also think, frankly, 
there was a lack of specific planning about how to conduct an 
evaluation, which hampered things.
    Mr. Coble. You mentioned the Coast Guard earlier, Mr. 
Secretary, and I think most everybody uniformly agrees that the 
Coast Guard probably was the only agency present who received 
consistent high marks from everybody during the grading. Do you 
believe that the Coast Guard would have done anything 
differently had it not been a part of DHS?
    Secretary Chertoff. I think what the Coast Guard did as 
part of DHS was enable us to, frankly, compensate for some of 
the deficiencies in other parts of the Department. I remember 
personally getting involved with the Coast Guard on Thursday to 
have them change some mission assignments because there were 
problems in terms of FEMA getting food and water to certain 
people.
    So I think that Coast Guard actually added value. And, of 
course, the culmination was I appointed a Coast Guard admiral 
to become principal Federal officer and take over the response 
operation.
    Mr. Coble. Mr. Chairman, I appreciate your five minute 
rule, and I hope you will give me credit for yielding well 
before the red light illuminated.
    Mr. Shuster. I am taking notice and we are making it down. 
Thank you, Mr. Coble.
    Mr. Oberstar.
    Mr. Oberstar. Mr. Secretary, I think it is a rather feeble 
explanation to say that it took the Department of 
Transportation five years to be fully operational. I served on 
the staff here on the Hill, for my predecessor, who was charged 
with the responsibility of creating the Department of 
Transportation at the request and initiation of President 
Lyndon Johnson.
    We spent months crafting that legislation. We spent months 
putting it into legislative language and working with the White 
House and the Senate and getting a bill signed. But it was 
fully, carefully, structurally thought through with these very 
issues of integration in mind. And what I was contrasting was a 
seasoned transportation professional in Secretary Mineta and a 
Department that was helter-skelter.
    When FEMA was transferred into Homeland Security, the 
Office of National Preparedness was transferred out of FEMA 
into the Office of Domestic Preparedness. And, by the way, this 
Committee had responsibility for creation of FEMA, from civil 
defense to the Office of Emergency Preparedness to Federal 
Emergency Management Administration. I was Chairman of the 
Subcommittee that created that language, so I know what we 
intended.
    Now, since that time, the remaining preparedness functions 
of FEMA have been systematically stripped out, and now in your 
second stage review there is a new preparedness directorate 
that transfers all of FEMA'S preparedness activities into the 
new directorate, looking at your documentation. Virtually every 
professional in the field outside of the Department says this 
is a mistake; you can't fragment this agency.
    That is what you have done, you have fragmented FEMA. And 
you are setting yourself up, setting the Department and the 
Agency up for a fall in the future. The National Emergency 
Management Organization president said it is absurd to think 
that an agency can respond effectively and recover from 
disasters without a preparedness effort to accomplish this 
task.
    Why continue with this separation? Why continue with the 
further fragmentation?
    Secretary Chertoff. I agree with you. First of all, 
preparedness has to be integrated with response. But I also 
have to say preparedness is not only related to response. 
Preparedness is related to prevention and protection as well. 
And I--
    Mr. Oberstar. And in connection with prevention, do you 
support the Predisaster Assistance Mitigation program?
    Secretary Chertoff. I do support the mitigation program, 
but--
    Mr. Oberstar. Then help us get it reinstated.
    Secretary Chertoff. But let me say that in looking at the 
issue of preparedness, when I came into the Department, there 
were elements of preparedness scattered in different parts of 
the Department. Now, if you go to the police chiefs and you go 
to the State homeland security advisors, they will tell you 
that they are very concerned about preparedness in terms of 
intelligence gathering and prevention. If you go to the people 
who have private infrastructure, who are worried about oil and 
gas and fuel and water, they worry about preparedness as it 
relates to what they have to do. And then, quite rightly, the 
responders worry about preparedness.
    Seems to me we have got to have all of the preparedness 
aligned: grants, training, and planning. And that doesn't mean 
parceling it out among different operational components, it 
means pulling preparedness as a discipline together in one 
place with one accountable person in charge, and then having 
the operational expertise in the Coast Guard, in FEMA, in other 
parts of our Department, in Department of Defense, pull the 
inter-preparedness to work with preparedness to develop a 
holistic plan.
    Mr. Oberstar. That essentially was the lesson to have been 
learned from September 11, interoperability of communications 
coordination of logistics. But it failed.
    Secretary Chertoff. Well, and I will be the first--
    Mr. Oberstar. And you had time--not you personally, 
although yes--your Department had time knowing this hurricane 
was on the way.
    Secretary Chertoff. I agree with you that when I came in in 
February of last year and looked at the issue of preparedness, 
precisely what you are talking about, and examined it, my 
conclusion in July, which I told the Congress, was we are not 
where we need to be.
    And I was convinced that what happened is no one 
institution or part of the Department had real responsibility 
for preparedness across the board, for comprehensive planning, 
for comprehensive equipping, and for comprehensive training. 
And my judgment was we needed to make it not a stepchild to 
operational agencies, but to integrate everything together.
    Now, believe me, if I could have gotten it done between 
July and August, I would have done it in one month. But I think 
I was honest enough to say this is a challenge that is going to 
take a number of months. I am really committed to getting this 
done, and I think a lot of it requires sitting down and 
actually starting to do some real comprehensive planning.
    Mr. Oberstar. Mr. Chairman, thank you for the time.
    Mr. Shuster. Thank you. And you will have an opportunity, I 
am sure, to ask another question.
    We will now go to Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Chertoff, I have to apologize, because I keep looking 
at what the problem is, and the problem is not your fault. You 
just said you came in last February. Your predecessor, Mr. 
Ridge, tried to put together Homeland Security, putting 177,000 
people into one agency, more than a dozen Federal agencies.
    I remember some of that debate, and the President initially 
opposed the huge bureaucracy that was planned, and I think we 
all got sucked into going along with it. I was concerned at the 
time about putting FEMA under Homeland Security, and, actually, 
if you look at part of the problem, in the past, FEMA, in an 
emergency situation, dealt directly with the President, and we 
have got one more layer in, you. I would like to take FEMA out 
and have it operate at least independently in these cases of a 
national emergency. What is your response?
    Secretary Chertoff. My response is that I think from an 
operational standpoint we haven't added a layer between FEMA 
and the President, we have added a substantial amount of 
additional resource and support to allow FEMA to operate. I 
don't think--
    Mr. Mica. Well, obviously there was a breakdown. Again, if 
you look at who was in charge, even your previous testimony, 
you have got arguments about who is the principal Federal 
officer, and that didn't work.
    Secretary Chertoff. Well, I think it is pretty easy to 
prove if you look at the actual facts. Mr. Brown I guess made 
it very clear last Friday in the Senate that he actually tried 
to operate during his time as principal Federal officer under 
the old model. He tried to take his concerns directly to the 
White House, which, of course, is not an operational agency. 
The White House is not going to get on the phone and order 
buses.
    And he tried to duck the Department of Homeland Security, 
and I think it demonstrably failed to work. When I put Admiral 
Allen in charge, Admiral Allen played the way he was supposed 
to play it.
    Mr. Mica. But it didn't work. And, again, I am concerned 
about the monster that Congress created in trying to run it. 
Now, Ridge put a lot of it together. You have been trying to 
run it. You came in in a few months.
    Mr. Oberstar just raised one of the things that is still a 
concern, one of the issues that we saw after September 11th was 
the failure of communications. We saw the failure of 
communications. A lot of this could have been resolved if 
people could communicate. I saw one example of--and this isn't 
your fault, necessarily--of Homeland Security money going to 
buy lawnmowers for a Maryland fire station. Isn't it time that 
we set as a first priority communications and interoperability 
of those communications for disaster and for those that deal in 
disasters at all levels?
    Secretary Chertoff. Well, I agree, but I will tell you 
that, first of all, the lawnmower story--and some of those are 
several years old. Our current grant funding is much more 
disciplined and much more specific, has very particular 
capabilities like communications, and I am told a billion 
dollars of grant money has been spent now on communications 
equipment through grants. So we have made a lot of progress.
    Now, we didn't make enough to meet the challenge of 
Katrina, but, on the other hand, I think, in fairness, we have 
moved a considerable distance from where we were on 9/11.
    Mr. Mica. The final issue--I deal with aviation, as you 
know. We have a warning right now--it is a Level 5 warning, if 
you want to compare it to levees breaking--with the failure of 
our passenger security screening system. The Congress has not 
changed out that $5.6 billion system. I know you have made some 
attempts to change it to a risk-based system. Where do you 
think we need to go from here? You have got the balance of my 
time.
    Secretary Chertoff. I think, as you know from talking to me 
and the Deputy and Assistant Secretary Hawley, we are committed 
to moving, first of all, away from screening for some of the 
things we don't need to screen for anymore. We need to move to 
the next level of explosive detection equipment.
    We are doing some of that now. We have got money in the 
budget for that now. We are trying to push some of the security 
now out into the airport itself, using canine teams, so we get 
around out in the area where people are waiting, which is 
another vulnerability.
    You know, we clearly don't have to keep locking the barn 
door against hazards that we have already addressed by 
hardening cockpits. We need to start thinking about the next 
generation, and that is what we are working on.
    Mr. Mica. Thank you.
    Mr. Shuster. Thank you.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    I always hate to contradict my Chairman, but the President 
proposed this giant new bureaucracy. A number of us, after 9/
11, said we failed to coordinate. We need a cabinet level 
secretary to make the FBI, the CIA, and all these agencies 
coordinate these efforts better. We did not ask for a giant new 
bureaucracy; that sprung full-blown out of the White House on a 
Tuesday evening, when they wanted to knock Colleen Rawley off 
the front page of the paper because she was spilling her guts 
about how the FBI failed to open Moussaoui's computer and we 
could have stopped 9/11.
    I hate this reconstructionist history. That is Bush's 
bureaucracy. Bush named Albaugh. Bush named Michael Brown. Bush 
subsumed FEMA into the Department of Homeland Security over the 
objections of this Committee and over the objections of many 
others who said it would fail, and it failed us horribly. And 
it needs to be fixed.
    Mr. Chertoff, that is not to you, because this is pre-you. 
But we just have to keep the history straight.
    I am going to go back to something that was raised by 
another colleague this morning, which is the 11,000 modular 
homes sitting in Hope, Arkansas. In response to my colleague, 
you said, well, we don't want to put those in a floodplain. 
Instead, we are putting in mobile homes. And at the moment, 
that was somewhat reasonable, but here is what I thought about.
    Along the Siuslaw River in Oregon, FEMA paid, or not FEMA, 
but we paid through the flood program to raise modular homes 
and put them on pilings so the river can flood. We just had 
another big flood; the river went under them; they were all 
fine. Okay.
    And I started thinking about, now, wait a minute, we are 
going to put all of these mobile homes, tens of thousands of 
mobile homes down into Mr. Taylor's area, way down into Mr. 
Melancon's area?
    So what do they become in a hurricane event? How are we 
going to get 30, 40, 50,000 mobile homes out of a high wind and 
flood-prone area? They are going to become flying objects. Or 
do we have a coordinated plan to evacuate those 30 or 40,000 
mobile homes? Maybe we would be better off using the stockpiled 
11,000 modular homes, which are sitting in a field while people 
in Mr. Taylor's district are camped in tents, and putting them 
up on pilings.
    Secretary Chertoff. I think we are confusing two different 
things.
    Mr. DeFazio. No.
    Secretary Chertoff. Well, I have to answer to explain. What 
we are putting down in Mississippi and Louisiana, for the most 
part, is trailers, travel trailers.
    Mr. DeFazio. That is what I mean. That is a mobile home 
versus a modular home.
    Secretary Chertoff. Well, but a mobile home--well, we may 
be talking about different things.
    Mr. DeFazio. We call them mobile homes in the west. 
Trailers, whatever. Same thing.
    Secretary Chertoff. It is kind of like grinders and subs.
    Mr. DeFazio. Right. It can be a fifth wheel, whatever you 
want to call it.
    Secretary Chertoff. So let me define what I mean. Travel 
trailers are things you can hook on the back of a car and move.
    Mr. DeFazio. Right. We have a plan to get 30,000 or 40,000 
of them out of there in a 24 hour period?
    Secretary Chertoff. Yes. Those we do put down in Louisiana. 
We do put them down in Mississippi. Those are permissible under 
the regulations exactly because you can hitch them up to the 
car and move them out.
    Mr. DeFazio. But I remember the pictures in Texas. We had a 
lot of trouble evacuating people in Texas. Aren't we going to 
now be all piled up with all these people trying to hook up 
their little travel trailers, fifth wheels, to the back of 
their pickups and evacuate?
    Secretary Chertoff. Well, you are putting your finger on a 
really important issue which I am going to be speaking about in 
the next couple of months, which is hurricane season is coming 
up. We are in the middle of reconstructing.
    I don't know--you know, there are a significant number of 
people in Mississippi who do have trailers on their home sites, 
looking to rebuild. I don't know if they are going to be 
rebuilt by June 1 or not. And we are going to have to start 
making plans. That means I am going to have to sit down with 
the Governors of both States and say, what are your evacuation 
plans in the event another hurricane comes on June 1st? And 
that is going to require us to ask exactly that question.
    Mr. DeFazio. Okay, great. I am glad you are on that.
    Let us go back just to the interoperable communications, 
which I raised earlier today. And I am still concerned that the 
Bush Administration has zeroed out all grants to local 
governments for interoperable communications, the number one 
priority I hear from everybody. But I hear you said on Monday 
that creating a hardened set of communications capabilities 
allows DHS, FEMA, Federal, State, and local partners to better 
communicate. If they don't have interoperable communications at 
the State, county, city level, what is this new construct of a 
hardened set of communications that will allow you to 
communicate with the State and local partners?
    Secretary Chertoff. Well, the first thing you have to have 
before your communications are interoperable, they have to be 
operable. The problem in Katrina was it didn't matter whether 
they were interoperable because everything went down. And I 
remember there was a shortage of satellite phones. And even 
with respect to the satellite phones, there were power packs 
that weren't available.
    So we are acquiring equipment that will, first of all, give 
us much more satellite phone capability. That, at a minimum, 
would give the people in command an ability to communicate with 
their operations center to give real-time visibility to what is 
happening on the ground. So we don't have to send people in 
helicopters to try to figure out what is happening, because we 
can get real communications.
    That is not a solution for interoperability, but this is 
kind of basic stuff that when everything goes down, we have got 
to have an alternative path.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you.
    Mrs. Kelly.
    Mrs. Kelly. Thank you.
    Mr. Chertoff, we all know you have a very tough job, and we 
all know that we have got to learn quickly from our lessons and 
be prepared for any potential disaster, including things like 
evacuations. In New York we are, understandably, very sensitive 
to your concerns, but we have been watching this issue unfold 
with considerable alarm.
    In my district, this concern is particularly acute because 
of our proximity to New York City and because it is the home of 
the Indian Point nuclear power facility. On that point there 
are a lot of serious questions right now about the emergency 
preparedness plans for Indian Point, and a lot of those 
questions fall squarely in your lap.
    Three counties in the Indian Point emergency response zone 
do not think that the emergency plan that FEMA has endorsed for 
the region is realistic or plausible. These counties have not 
certified the plan. They have felt this way since 2003, after 
Governor Pataki commissioned former FEMA Director James Lee 
Witt to conduct a study to conduct a study of Indian Point 
preparedness. Witt's report concluded, and I quote, ``The 
current radiologic response system and capabilities are not 
adequate to protect the people from an unacceptable dose of 
radiation in the event of a release from Indian Point.''
    Now, I don't want not suggest that the feds have not done 
anything since this time to try to address the concerns there, 
and it is clear, especially after Hurricane Katrina, that, with 
these evacuations, they have not done enough. My constituents 
are understandably apprehensive about FEMA'S ability to lead 
them on this issue.
    Despite what the Witt report tells them, despite what our 
local officials tell them, despite what the State tells them, 
FEMA continues to say this plan works. FEMA, then, I think, has 
a responsibility to explain why. People in the Hudson Valley 
want answers, and your agency is responsible for providing 
them. In other words, Mr. Secretary, if the counties don't 
think the emergency plan works, and New York State doesn't 
think it works, what makes you think it works?
    Secretary Chertoff. You know, I haven't looked at this 
particular plan myself, and, as you know, we are undergoing a 
comprehensive review of emergency plans for all of the 50 
States and we just got our initial report. I am not sure from 
what you are telling me whether there are specific things the 
State and the county want to see put in place in order to 
increase evacuation and make evacuation right, because, if so, 
those are precisely the things we ought to work with them on 
doing; or whether what you are telling me is that the local 
officials simply don't think that that particular Indian Point 
plant ought to be operable and they want to shut it down.
    I think what we need to do is look at the plan, see what 
steps--and I agree, we have to be realistic about whether the 
plans work or not--we shouldn't kid ourselves about it--and 
then see what needs to be done in order to make the plan 
workable with a realistic assessment of what the risk is. I 
can't tell you, as I sit here, that I have looked at it myself. 
I do think that has got to be part of the review that we are 
currently undertaking.
    Mrs. Kelly. I appreciate that. There needs to be a shared 
understanding of the Indian Point emergency plan so that we can 
truly make progress toward the improvements that are clearly 
necessary. With that in mind, I would request that the 
Department of Homeland Security and FEMA come up to Indian 
Point for a summit with all of the stakeholders--local, State, 
and Federal--to talk about the plan. I would like to see the 
DHS and FEMA work with the Nuclear Regulatory Commission to 
organize this summit for the State and local officials to 
reassess the emergency preparedness plans for the residents of 
the communities surrounding Indian Point.
    I know that the safety of local residents is always the 
DHS's number one concern. So I think that we have got to make 
progress toward establishing a feasible emergency plan that 
residents of the Hudson Valley are comfortable with. We have 
got to ensure that our local first responders, who are so 
critical in this effort, are involved and that their input is 
included and implemented. Right now they don't have any 
confidence in the plans that they are responsible for.
    I would like you to commit, sir, if you would, to a summit 
so we can work together at every level of government to resolve 
these concerns about Indian Point.
    Secretary Chertoff. Well, as I say, we have our 
preparedness directorate, which now has really the 
responsibility even to work with FEMA on these plans. I will 
pass on to our undersecretary my suggestion that he send a 
group up to address this issue specifically with FEMA and with 
State and local officials so we can validate what are 
legitimate concerns and what still needs to be done.
    Mrs. Kelly. If you would do that, sir, please include all 
stakeholders at every level of the government. That would be 
very helpful to us toward working with you to try to come up 
with an evacuation plan that people can have some faith in. 
Thank you very much.
    Mr. Shuster. Thank you, Mrs. Kelly.
    Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being with us this afternoon. 
I am going to ask you about the Urban Area Security Initiative 
that you direct. I represent San Diego, California and the 
whole California-Mexico border, and, as you know, we lost most 
of the funding from previous years under that initiative, and 
when the mayor and others asked you why, this is a quote that 
was in the newspaper: ``This is merit-based. It is driven by 
analysis that is disciplined by career officials using some of 
the best computer modeling we have in the Country, and we are 
going to stick to it.''
    The members of the San Diego delegation asked for a 
briefing from your Department, and you did what you just said 
to Mrs. Kelly, which I thought was an insult, by the way. You 
said you were going to ask the undersecretary to send a group. 
So some low-level group, that is who came to brief us. And let 
me tell you what they told us, Mr. Secretary.
    By the way, I cannot help but reach the conclusion--and I 
don't know the nickname that the President has bestowed upon 
you, but after this briefing from your minions, I can only 
conclude you're doing a heck of a job, Chertie.
    When I asked your folks do you know what the immigration 
figures are for our region, they said, well, we don't have 
those figures. And I said, well, through my district every day, 
legally, 300,000 people go back and forth across that 
international border. Every day 300,000. Not to mention any 
illegal situations. And they said, oh, yeah, we factor in 
immigration. This was after we just found a 2,400 foot tunnel 
that had all kinds of sophisticated improvements that could 
bring a dirty bomb across, as far as we could tell.
    So I moved from immigration, figuring they didn't know 
anything about that, and I said, can you name me an area which 
has three nuclear reactors sitting in its harbor--I mean, it is 
three nuclear carriers, six nuclear reactors--up to 12 or two 
dozen nuclear subs in the harbor, hundreds of ships--because we 
are the biggest Navy base in the world--a nuclear generating 
plant?
    I said, does anybody else have a threat that is posed by 
such a collection? And they said, well, you know, there are 
200,000 military assets, I don't know what your figures are 
there. And then he said, and this is a quote, this is from your 
briefer, ``The military assets are invisible to our 
calculations. Besides, we don't know what a threat is if it is 
posed by a nuclear carrier.''
    I have started to fear for this Nation, Mr. Secretary. We 
are a sleeping little fishing village, by your way of looking 
at it. We have a few fishing boats. Because everything else, 
and I quote, ``is invisible.'' I don't understand that. In 
other quotes I have seen that the Defense Department--the 
Defense Department is responsible, according to your officials, 
for the defense of those assets. We don't have anything to do 
with it as the Department of Homeland Security.
    I am baffled by that kind of reasoning. I walked out of the 
meeting. I said to your guys, you don't know what you are 
talking about; you don't know anything about immigration; you 
don't know anything about nuclear assets that the Defense 
Department has. And you are responsible for calculating the 
threat, a merit-based threat on our community?
    So how do you justify those conclusions and the responses I 
got? And those are quotes, Mr. Secretary. And when we asked for 
more detailed information about the decisions of the UASI 
program, we have gotten no detailed information. Your 
Department refuses to give to Congress that information; you 
just keeping it is merit-based. When are we going to get that 
kind of information so we understand what you are doing?
    Secretary Chertoff. Well, I think, first of all, we have 
offered--and if it hasn't been done in the case of San Diego, 
we can offer a classified briefing, which would give some more 
specificity--
    Mr. Filner. We asked for that, sir, and when they showed 
up, they said, well, we don't have any information.
    Secretary Chertoff. Well, I don't know who they are. And if 
the wrong people showed up, then I will get the right--
    Mr. Filner. Well, that is your responsibility, you sent 
them.
    Secretary Chertoff. Well, this is the first I've--
    Mr. Filner. We asked you for the briefing, so you must have 
sent them.
    Secretary Chertoff. Well, I didn't personally send them.
    Mr. Filner. That is like Mrs. Kelly. You are going to send 
some little group off to their major summit meeting too.
    Secretary Chertoff. Well, I have spoken to Mr. Foresman, 
who is the Undersecretary, who has got the ultimate 
responsibility now.
    Mr. Filner. Everybody else has responsibility but you, I 
see. We have not gotten a briefing. We asked for a classified 
briefing; you didn't give it to us.
    Mr. Shuster. Mr. Filner, would you yield for one minute? 
Let the Secretary answer. Let us give him the courtesy of 
letting him answer the question.
    Mr. Filner. I think we are passed the courtesy. We have had 
9/11, we have had Katrina, and we are heading for the same 
disasters with this kind of reasoning in that Department.
    Mr. Shuster. I understand. But, still, let us let the 
Secretary give an answer. He is listening; he wants to answer. 
Let us give him a chance.
    Secretary Chertoff. I don't know who particularly was sent 
to give you the brief. I do know that we have agreed to make--
    Mr. Filner. Ask the people behind you who you sent. They 
know. They know.
    Secretary Chertoff. I know that we have agreed to give 
classified briefings to a certain level of detail with respect 
to these decisions. With respect to the issue of immigration, 
we obviously addressed the issue of immigration directly by 
putting more border patrol into California, among other things, 
by my finally flipping the switch allowing the completion of 
the border fence, which languished for many years until I 
turned the light on on that.
    Mr. Filner. Except you didn't ask the Congressman from the 
area, who opposed it because it doesn't do anything for 
homeland security. Your people just don't understand what is 
going on there, and you won't even listen to us when we try to 
tell you.
    Secretary Chertoff. No, I will listen, but I will tell you 
right now I completely understand I am going to disappoint some 
people. My Department is not going to give money to everybody 
who wants it. There is going to be disagreement. There are 
people who are going to disagree with my--
    Mr. Filner. But explain to us why the threat that is 
imposed by the biggest Navy base in the world doesn't reach 
your calculations.
    Secretary Chertoff. What I am going to say to you is that 
we will give you a more specific briefing.
    But among other things, when we weigh risk, we think not 
only of threat, but we think about vulnerability, we think of 
consequence. When, for example, the First Marine Division is 
stationed on a naval base, that is a factor which has an impact 
on whether we have got vulnerability or not. So I can't sit 
here in this hearing, for any number of reasons, and explain 
with you or debate with you about this decision.
    We are willing to provide you with a briefing. I accept the 
fact that, being risk-based, some people are going to be 
unhappy. I could make everybody happy if I gave everybody 
money--
    Mr. Filner. All we want is a decent explanation.
    Mr. Shuster. The gentleman's time has expired.
    Mr. Filner. All we want is an explanation, and you are 
refusing to give it to us.
    Mr. Shuster. The gentleman's time has expired. The 
gentleman's time has expired.
    I recognize now Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. And I will be pleasant for a minute 
and courteous, and just tell you that my father-in-law, Ken 
Laptuck, was in town today. He wanted to come pay his respects, 
but he is over at the investiture of another one of your former 
colleagues from the U.S. Attorney's Office in New Jersey; 
Justice Alito is getting his robe today at 2:00. So he wanted 
to be here and make sure that I extended their hellos.
    Second of all, I want to commend you and the Department for 
stealing away Dan Shulman from the Transportation Committee. He 
knows a whole lot about all-hazards planning and ably served me 
when I had the pleasure of chairing the subcommittee that 
Chairman Shuster now has.
    And then just an editorial comment, because I heard you 
say, in response to Mrs. Kelly's observations about Indian 
Point--and I think she has some valid concerns. But I chaired 
the hearing in 2003, and just from my observation I think what 
you are going to find is an inadequate evacuation plan, but 
what you are also going to find is that there was a nuclear 
power plant, and the city fathers and mothers decided to let 
people build right up to the power plant, with hundreds of 
thousands of homes, and now we have got a lot of people who 
can't get out, and these same people now are wondering why they 
live next to a nuclear power plant. It is a complicated 
problem, but I know you will get to the bottom of it.
    I want to make a couple of observations and things that I 
have heard. Our colleague, Congressman Riechert is a former 
sheriff, and I have good relationships with the sheriffs back 
in my district. Just a couple of observations, then I will 
leave you plenty of time to respond.
    I was glad to hear you talk about the speech that you gave 
about all-hazards, that that needs to be the approach, because 
it has been our philosophy, I think, on the Committee that if 
my house is on fire, it really doesn't matter how the house got 
on fire; you want to put it out and then, after the fact, 
figure out whether it was terrorism, an electrical fire, an 
arsonist, or a lightening strike.
    There is a feeling, I have to tell you, where I come from 
in Ohio that there has been a shift, that when FEMA was 
subsumed by the Department of Homeland Security that all of the 
dollars went into antiterrorism, all of the efforts went into 
antiterrorism, and the core mission of FEMA to respond to all 
hazards--terrorism is just a subset; really, again, it doesn't 
matter when New Orleans is under water, whether or not the 
hurricane did it or a terrorist broke the levee.
    And there is a feeling--and maybe if you could spend a 
couple of minutes addressing, that after I make my second 
point, why you think that perception is out there. I have heard 
you say that is not true, but I have to tell you people think 
it is true.
    The second thing is the Department of Homeland Security 
recently came in and briefed the Buckeye Sheriffs' 
Association--not only my friend, Sheriff Dunlap, but all the 
other sheriffs--and they came back and they were chuckling, and 
they were chuckling because they said we have never seen so 
many anagrams and new terms, NIST and XYZ. He said, if I had 
one suggestion--so I am going to make it on behalf of my 
friends the sheriffs--tell them to speak English; don't come up 
with all of these new agencies with these new fancy shmancy 
initials that nobody can understand.
    I was just at a rail conference in Florida, and the test 
was here are five new agencies that Homeland Security has just 
come up with; can anybody tell us what they are. And nobody 
knows.
    So father than presiding over an agency that confuses 
people, if you have something that is in charge of floods, why 
don't you call it the place that is in charge of floods, rather 
than the FYBUT, whatever.
    So those are my two observations. One is there is a 
perception that you are not all-hazards, that you are all-
terrorism all the time; and, two, if you can speak English in 
your programs, I think the folks that I represent would 
appreciate it.
    Secretary Chertoff. Let me try to deal with the second 
first. When I came into the Department, I was struck by the 
same thing. Part of it is there are a lot of ex-military guys, 
and I find people in government, in general, and people in the 
military do use a lot of acronyms. I also try to have a plain 
English rule. I get briefings sometimes. I have got to confess, 
it is like alphabet soup. I can't say I despair of changing 
that, but I certainly am going to try, as much as possible, to 
get people to speak English.
    I know the perception of us being predominantly terrorism-
focused is out there. Part of it is that a lot of the grant 
funding that has been enacted by Congress is focused on 
terrorism, so we live within those programs. But I want to talk 
about a couple things I have done to try to counteract that.
    One is, when we came out with our national preparedness 
goal, which looked at a series of different capabilities, we 
modeled it on a series of scenarios and specifically talked 
about hurricanes, earthquakes, and a couple of other natural 
disasters. So in actually coming up with the types of 
capabilities we would fund in our grant programs, we looked at 
things that were pertinent to natural disasters.
    I have also said even under our Urban Security Initiative 
that while we have to, by the terms of the program, we have to 
establish eligibility in terms of risk of an attack, that we 
are prepared, in terms of investment justification, to look at 
things that would do double duty for a hazard, whether it was 
natural or manmade.
    So we have tried, within the framework of the requirements 
of the law in terms of grant, to make sure we are building 
capacities that can do all-hazard service. So that is one way 
in which we have tried to make that point.
    Mr. LaTourette. Okay. Well, I appreciate it. As long as you 
recognize the perception is out there, and whatever you can do 
to do it because, again, if you give us a fire truck, we want 
the fire truck to put out every fire that happens, not just the 
one that the terrorist started.
    So thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. LaTourette.
    Mr. Taylor.
    Mr. Taylor. Secretary Chertoff, thank you for being here. 
Secretary Chertoff, since you brought the subject of FEMA 
trailers up, let me walk you through what apparently no one in 
FEMA has taken the time to look at.
    As people in Mississippi are living in tents still, or in 
an old Astro van, or their mother-in-law's couch, our Nation 
buys a trailer for about $14,000. We pay a driver to take it to 
Hope, Arkansas, and it sits there, sometimes for months. We pay 
another driver to take it to Purvis, Mississippi, and it sits 
there for months.
    When it gets to Purvis, nobody bothers to see if the 
plumbing works, if the air conditioner works, if the microwave 
works, if the heater works. Then it goes to a staging area 
owned by Bechtel or another contractor, and it sits there for 
months. Then we pay another drive to deliver it. Bechtel sends 
a team of about four to six out to install what moms and dads 
do by themselves every weekend, which is to hook up a water 
line, find the sewer tap. And the one complicated part is the 
electricity, but apparently no one at FEMA has bothered to get 
a core group of good electricians to do this.
    So I think a fair question is it has now been seven months. 
How much has our Nation paid Bechtel to deliver those 36,000 
trailers, pay all those drivers and have those trailers sit 
there so long?
    Second thing is--and you brought this up yourself--we now 
have 36,000 trailers sitting in coastal Mississippi where 
houses used to be, and we are coming up on hurricane season. Do 
you, or anyone, have a plan as to what to do if we get hit 
again? Because the Navy Oceanographic Lab says we are in for 10 
years of higher-than-average activity and worse-than-average 
storms. Are you going to leave them there to be blown apart in 
the next storm? Are you going to try to get them out of there? 
If you can't deliver those 36,000 in almost seven months, are 
you going to get them out in two days?
    Secretary Chertoff. First of all, Congressman, I know you 
have a greater personal awareness than probably anybody in the 
room because you have been through this experience in the last 
hurricane. And let me deal with both of those. I have the 
number on Bechtel. It is not in my head; I can get it for you. 
And I know that the whole way in which we have delivered things 
is part of a bad logistics system, which I have acknowledged we 
have to correct.
    But let me come to your second thing, because I am going to 
be honest, that really worries me. It is obvious to me that--
and this is just a matter of the calendar and the weather--you 
can't necessarily rebuild your houses, certainly not to the 
standard you need to rebuild, by June 1st. There was a 
tremendous demand for trailers, and I think it was right for us 
to send trailers down there to let people work on their 
property and try to get rebuilt. But we can't stop hurricane 
season from coming.
    So what I want to do now, in February, months before, is--
and I am happy to--if you want to take this message back, and I 
will certainly start talking about it soon--we have got to 
start thinking about what we are going in hurricane season. And 
it may very well be the fact that, because I don't know how you 
would evacuate 30,000 trailers in two days, we have to start to 
consider what are our options for those trailers. Do people 
want to start to think, in advance of hurricane season, of 
moving trailers elsewhere? That would take them off their 
property and that would really stop the rebuilding process.
    By the way, I am completely open to suggestions on this. I 
do not, as I sit here, have an answer. I started to ask this 
question a couple weeks ago precisely because I realized that 
we might not have people rebuilt by the time that the 
hurricanes come. So I would be more than happy to talk to you 
about what we need to do to start getting ready while we have--
    Mr. Taylor. Mr. Secretary, if I may. And I hope you can 
sense a bit of controlled rage here, because 99 percent of the 
work I have done since the storm is doing your job. Ninety-nine 
percent of the calls to my congressional office were complaints 
about FEMA, whether it is a FEMA trailer or the time it took to 
get that trailer, or a complaint about the trailer itself. You 
have gotten more compare orders than you have delivered 
trailers.
    And, again, when it gets to Purvis, no one takes the time 
to run a water check on it, no one takes the time to see if the 
heater works, to see if the microwave works. So when you have a 
core of people who could fix those things as we accept them, 
or, even better, make the manufacturer pay for those repairs, 
it then becomes the citizens' expense to send a plumber out, to 
send an electrician out, to send someone out with a caulk gun 
to plugs the leaks.
    That is insane. I can see that for the first couple 
thousand. All right? I could see that for the first month. But 
the second month, the third month, the fourth month, the fifth 
month, the sixth month? You are not getting any better.
    And I don't say this happily: I have zero confidence that 
this Nation is any better prepared for the next storm if it 
hits my district, or Alabama or Florida or South Carolina, than 
it was the last. And you said we are open to suggestion. You 
are, and then they are trash-canned. I have been sending both 
verbal and written suggestions to your Agency since September. 
Nothing changes.
    I am on the ground, I am talking to people, I am making I 
what I think are common sense suggestions all the way from 
simple things like you should have bought 36,000 power poles 
that you were ready to plug into, and get the local utility 
company, when it has to go out and hook up that power anyway, 
to sink it. That is the most difficult part of the 
installation. That is not changing, so you are paying to have 
these things wired one at a time. Absolutely no efficiency.
    And it kind of hit me, if we turned it over to Homeland 
Security to plan D-Day, General Eisenhower would still be 
waiting for the landing craft.
    Secretary Chertoff. Well, I have to tell you, Congressman, 
I completely share your frustration, because I have spent much 
more time than I should spend as Secretary of this Department 
trying to understand precisely the issues you have, and I keep 
hearing about problems with contracts. And that is why, when I 
got up here and I said we have got to completely reconfigure 
the way we contract these things out, I spoke out of the same 
sense of frustration you do, because I don't think you ought to 
be doing that and I don't think I ought to be doing that.
    The question of how we get things delivered in a way that 
they are sound and they can be hooked up in a reasonable 
fashion is the kind of fundamental business process that ought 
to be solved inside the agency. And if you are going to 
contract out for trailers, you ought to contract out for an 
integrated solution, which is get the trailer and get it in 
there in proper shape, and not little pieces of contracts that 
don't synchronize together. And whether this is a failing of 
the contract or a failure of the way we contracted, it is 
plainly unacceptable, and this is exactly the kind of thing we 
have to cure for next year.
    The second piece, though, which I don't want to leave 
without--I know I am running over time, but I don't want to 
leave without emphasizing is with the best intentions of the 
world, if all the trailers were in perfectly right now, we 
would still confront the second issue. If houses aren't built 
by June 1st--and I don't know how far a lot of them are--
    Mr. Taylor. May I respond to that?
    Secretary Chertoff. Yes.
    Mr. Taylor. Mr. Secretary, every plumber, carpenter, 
electrician, roofer for hundreds of miles has two or three 
years of work right now. So please don't kid yourself into 
thinking that these houses, that these 40,000 to 60,000 
houses--and even your agency can't give me a hard count just 
for South Mississippi have to be replaced, but I can tell you 
it is 40,000 to 60,000--you are going to be nowhere near there, 
and something you absolutely have to start considering is the 
extension of that 18-month deadline.
    Because, remember, the guy who got his trailer in October 
gives it up in 18 months. The guy who gets his trailer this 
month gives it up in 12 months, because you have an artificial 
deadline of 18 months from the day of the storm. And I can 
assure you that that need will be nowhere near fulfilled by 
then.
    Secretary Chertoff. Well, we can work on that, but the 
thing--and this is probably an off-line conversation, probably 
one we ought to have with Governor Barber and the other local 
officials is to start--
    Mr. Taylor. He didn't set that deadline, sir.
    Secretary Chertoff. No, no. We can talk about the deadline, 
but I want to come back to the thing you raised earlier, which 
I don't want to leave without really driving home.
    And maybe we ought to have a conversation with the Governor 
and others about this. If things are not built by June 1, 
people are going to be in trailers, we are going to be in 
hurricane season. We have got to know what those people are 
going to do.
    And I want to start talking about that five months in 
advance, not five days in advance. And I welcome the 
opportunity to get with you and the other officials down there 
and start to talk about that, as well as all these other 
things, because we want to get this corrected and finished. You 
know, I don't think it is right for you and, frankly, I don't 
think it is a good idea for the Secretary to be spending a lot 
of time thinking about utility poles and trailers. We ought to 
be able to do that in FEMA and we ought to be able to get FEMA 
to have a business process that gets that to work, and that is 
what I aim to do.
    Mr. Shuster. The gentleman's time has expired. I am very 
sensitive to the gentleman from Mississippi's situation, so 
when we get through the first round, if your side doesn't 
object, we will go to you first. Thank you.
    Mr. Ney.
    Mr. Ney. Thank you.
    Secretary, welcome today. I convened in October a couple 
meetings down in the district I represent, and one of the 
reasons was to get input from people, because we have flooding. 
Nothing to the order of what happened, obviously, in the Gulf, 
but we have flooding.
    One of the things I want to throw out here today is I think 
we have got to be careful that as we approach the natural 
disasters elsewhere in the Country and the ones that are going 
to come up, when we change the rules, if we change the rules--I 
think in the Gulf's case we have to make some unprecedented 
changes, I don't disagree with them at all.
    But I think we have got to be sensitive, as we change 
rules, to make sure how they apply to the rest of the Country 
in regular flooding situations. Have you looked at anything on 
that nature, of trying to assess what works and what doesn't 
work?
    Secretary Chertoff. Yes. One thing I have tried to do as we 
go into the--because I think you are exactly right. The Gulf is 
a separate unique set of challenges, but I also want to make 
sure that we don't lose sight of that fact as we consider and 
change the kind of bar with respect to other parts of the 
Country, because we do have to maintain some financial 
discipline; otherwise, we could wind up with just an 
unbelievable program.
    We have begun to introduce some discipline into the process 
that FEMA uses to determine exactly when something is a 
disaster and when something is an emergency, and what to be 
paid for and what the terms ought to be in terms of cost-share 
and things of that sort, because although the Gulf was unique 
and requires unique, maybe, changes in the rules for the Gulf, 
that doesn't mean we want to all of a sudden have Gulf 
standards apply to the routine disaster, where we will wind up 
for paying for every snow storm and every flood.
    Mr. Ney. Or some rule changes.
    Secretary Chertoff. Correct.
    Mr. Ney. The last part I have--and I am not going to ask 
you a question and play gotcha on this. So, without objection, 
if I can submit this for the record.
    Mr. Shuster. Without objection, so ordered.
    Mr. Ney. Two letters. And this is not from you, but this 
shocks me. I had a hearing--in fact, we were the first House 
hearing to go down to Mr. Taylor's district. I was with Mr. 
Taylor and also down to New Orleans with Maxine Waters from the 
Housing Subcommittee. We focused on housing. But I still want 
to ask a question outside my jurisdiction, but important, I 
think, to the Country, and it is with regards to New Orleans.
    I wrote a letter September 29th, and it is to the Army--it 
was responded by the Department of the Army, of course, Deputy 
Director of Civil Works. The letter is shocking to me, and that 
is what I have got here. But it will fall under--I think will 
fall under you and the Department for future situations on the 
levee. In a nutshell, in response to my letter, it says that 
the goal--to paraphrase, the goal was to restore the system to 
provide Katrina design by 2006, the state of next year's 
hurricane system, which is fine in that regards. Determining 
the level of protection that is appropriate is an issue for the 
citizens of New Orleans, the State of Louisiana, and the Nation 
as a whole.
    But what they say in here is that they are going to restore 
it to a level 3. Now, it says we currently do not have an 
approved cost estimate for providing category 5 level 
protection to New Orleans. Preliminary scheduled estimates for 
providing category 5 protection for metropolitan New Orleans 
could take nine to ten years from when we are given the 
authority and the money.
    What shocks me about this is we are going to rebuild at 
level 3. We know that level 3 will not make it. And we are 
spending money, and I want to help the people down there, and 
that is why we are working on the housing. I guess--and that is 
why I am not playing gotcha on this. You probably haven't seen 
this letter.
    But somewhere down the line the Feds, the State of 
Louisiana, and the City of New Orleans, somebody has got to 
pull the trigger to make that call. If we rebuild to level 3 
and something else happens, I can tell you people are going to 
say do we respond with $80 billion. And the other thing is 
there has got to be a way to go faster than nine to ten years.
    So I just raise this because, to me, this is shocking.
    Secretary Chertoff. Well, as you know, Congressman, first 
of all, the Army Corps is not in my Department, and, second, I 
have not seen the letter before. I know from previous 
statements--
    Mr. Ney. Not to interrupt you, but that is why I didn't 
want to play gotcha on this. But I will tell you it is not your 
Department, but because of your authority in FEMA and natural 
disasters, I don't think this is just a call of the Corps.
    Secretary Chertoff. No, I agree.
    Mr. Ney. It is going to come eventually to you and the 
White House.
    Secretary Chertoff. I think that what has been said 
publicly about what will be done by June 2006 is built to 
category 3 or--and you don't actually build to categories. One 
of the problems is the category--save for Simpson's calendar, 
hurricanes does not mesh with the way they describe how they 
build.
    The best way to put it, I think, in simple terms is I think 
the intent of the Army Corps by June 1 is to build to what the 
standards were intended to be prior to Katrina, but with the 
levees built properly. Because I gathered that what emerged in 
some of the studies is that the levees had deficiencies in the 
way they were constructed so that, among other things, one of 
the levees that failed didn't even have water up to the top of 
the levee, and it should not have failed at all.
    Now, the whole second question you raise is--which goes 
back to Congressman Taylor's question--we are coming--you know, 
the clock is not going to wait, and there is going to come a 
time people are going to have to make some hard decisions about 
where it makes sense to rebuild. And no amount of wishful 
thinking or political discussion or whatever is going to change 
the physical realities of what is on the ground.
    Mr. Shuster. Thank you. The gentleman's time has expired.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    Welcome, Secretary. I will be real quick. I take it that 
your answer to Mr. Mica's question about FEMA being a 
standalone is no.
    Secretary Chertoff. I think if we were more standalone, it 
would be--
    Mr. Honda. That is sufficient. Just no, right?
    Secretary Chertoff. Right, no.
    Mr. Honda. Now, we have deadlines coming up on the folks 
who have housing, and many of them will be displaced again. I 
visited Bayou La Batre, Biloxi, been to Houston, and there are 
a lot of folks in Houston who are going to be displaced because 
of the deadline. Do you have the authority to extend the 
deadline?
    Secretary Chertoff. Are we talking about the hotel 
deadline?
    Mr. Honda. Pardon?
    Secretary Chertoff. Are you talking about the hotel 
deadline?
    Mr. Honda. Hotel, motel. The housing.
    Secretary Chertoff. Let me make clear exactly what the 
deadline is, because no one should be displaced, if they are 
eligible and if they are in touch with FEMA. We have contacted 
every single--
    Mr. Honda. My question is, do you have the authority to 
extend the deadline?
    Secretary Chertoff. I have authority to extend within legal 
limits. But I want to make clear that nobody is going to be 
displaced without having received money for rental assistance 
or some alternative form of housing provided they are eligible 
under the law.
    Mr. Honda. Okay, then. There are folks in Houston, over 
15,000, who are Vietnamese or other Asians who have been 
displaced from the Gulf Coast who have no idea how to get in 
contact with FEMA. FEMA had no idea how to contact them. And 
once they knew the community was there, they made no efforts. 
They say they tried, but they made no efforts to station 
themselves where the population is. Like you say, you want them 
to go out to the community--
    Secretary Chertoff. Right.
    Mr. Honda.--where the folks are. That hasn't happened. 
Where will they fit and will you--
    Secretary Chertoff. Well, I guess I have to ask you a 
question. Are these people in apartments? Because we are 
arranging with--if they are in apartments, people who were 
displaced who got apartments, there is no deadline for them to 
leave in the near future. I think that the apartments in 
Houston, there were leases signed for 12 months. So--
    Mr. Honda. And you are covering that, FEMA?
    Secretary Chertoff. FEMA is working with the city. I think 
FEMA will wind up reimbursing the city. I think the city is 
directly paying for the apartments.
    Mr. Honda. But there are some problems with definitions, 
housing versus shelter. Whether they are in housing, 
apartments, whatever, it is still shelter for them because they 
have been displaced. Is that a big problem in your mind?
    Secretary Chertoff. I think it has been a huge problem, and 
we have tried to handle it in the following way--
    Mr. Honda. Well, can we get this agreement, that the 
deadline will be extended until those kinds of problems are--
    Secretary Chertoff. We can get this agreement, that nobody 
who is eligible, who FEMA is aware of, will be displaced. 
Everybody who is eligible--and we can make the FEMA number 
available and I can give it to you afterwards--
    Mr. Honda. No, the City of Houston has that.
    Secretary Chertoff. Then they--
    Mr. Honda. So you are saying if the City of Houston say 
these folks need the extension, you will give that extension to 
those folks?
    Secretary Chertoff. I want to be careful because I am not 
going to give a blank check to somebody. I will tell you 
exactly what--
    Mr. Honda. Well, let us just assume we are doing it right. 
Will you extend it?
    Secretary Chertoff. The way this is designed, everybody in 
Houston who is in an apartment, we will reimburse the city for 
the 12 months. So there is no deadline for those people. People 
in hotels will either get direct money they can use to pay 
for--
    Mr. Honda. I understand that.
    Secretary Chertoff. Right.
    Mr. Honda. I am asking you, working through Houston, 
whether they are in hotels, motels, or homes or apartments, if 
they are evacuees and they are from the Coast and they are part 
of the program that have not been addressed by FEMA because 
they were evacuees, they are mostly Vietnamese and other 
Asians, will you extend that deadline?
    Secretary Chertoff. If someone is entitled to get aid and 
they haven't gotten it yet, we will extend it--
    Mr. Honda. Entitled is an issue.
    Secretary Chertoff. Well--
    Mr. Honda. Because if they haven't been hooked into FEMA in 
the beginning--
    Secretary Chertoff. I understand that. Congressman, what I 
can't do is tell you if someone is not entitled, I am going to 
pay them, because that would be a violation of the law. What I 
can tell you is if someone is entitled, and for some reason we 
haven't connected to them, we will not displace them, we will 
make sure they--
    Mr. Honda. And those reasons will be acceptable if Houston 
says, because you are a stickler on details and definitions.
    Secretary Chertoff. I am a stickler on not breaking the 
law.
    Mr. Honda. Well, okay. I understand that. So I am assuming 
that you are saying it is okay if Houston communicates with you 
and addresses those issues, even if they don't fit the 
definition of FEMA because they weren't contacted.
    Secretary Chertoff. Well--
    Mr. Honda. Because let me tell you what happened. These 
communities did not get communicated in a language they 
understood. You have a memo from the Attorney General that says 
you all have responsibility to communicate in the language that 
the population needs, and if that hasn't been followed and we 
can substantiate that, I would hope that you would say let us 
do the right thing.
    Secretary Chertoff. Absolutely. I will tell you we will do 
the right thing. And if because of whether it is our scoop or 
just a mistake, someone who is entitled, who is a genuine 
evacuee, who is entitled to money and assistance didn't get it, 
we will make sure they don't get displaced, as long as they fit 
the program--
    Mr. Shuster. The gentleman's time has expired.
    Secretary Chertoff.--they are evacuees.
    Mr. Shuster. Mr. Honda, we will come around again and you 
can continue the line of questioning. I want to give everybody 
an opportunity.
    I will recognize Mr. Hayes now.
    Mr. Hayes. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciate your being here. I think you 
have been a punching bag plenty. The criticisms have certainly 
flown all directions. I want to pay particular attention to my 
friend, Mr. Taylor, who certainly earned his stripes more than 
anybody, having lived through the whole thing. Having said all 
of that, anything that might be construed as a criticism of the 
critics, that is not true, especially Gene.
    A lot of good things happened. The problems we have talked 
about in great detail, and it is important we do that. I want 
to thank you and particularly your staff. Amy McGinnis, behind 
you, has been very, very helpful as we have tried to work 
through some very, very serious issues. A lot of things 
happened that were bad and a lot of things happened that were 
good.
    I have just gotten my hands on a completed report today 
that we have done through the Armed Services Committee--this is 
obviously a Federal issue--of the incredible job that the 
military has done during and after Katrina to help people. So I 
want to turn that over to Amy just as soon as we get it 
printed, but I did want to call attention to the fact that many 
wonderful people did many things for their neighbors, their 
friends, their churches.
    I worked with Gene a lot on many, many individual efforts, 
and I want to make sure that, as we go forward, those people, 
public and private, are recognized for the incredible sacrifice 
and contribution that they made.
    So thank you for working with us. We want to help the 
Department in any way to make sure that we do our best in the 
future.
    Secretary Chertoff. Thank you.
    Mr. Hayes. Having said that, Mr. Chairman, I would like to 
yield time to my friend, Mr. Simmons.
    Mr. Simmons. I thank the gentleman for the yield.
    Mr. Secretary, you spent an exciting time this morning 
before the Homeland Security Committee, this afternoon in front 
of T&I, and we thank you for your endurance and your patience.
    I note that on page 1 of the Executive Summary of the 
Report of Findings it says both imagination and initiative 
require good information and a coordinated process for sharing 
it. So information, good information and information sharing is 
a key component of how we deal with natural disasters, as well 
as how we deal with terrorist or manmade disasters.
    As Chairman of the Intelligence and Information Sharing 
Subcommittee, I have a great interest in what I call open-
source intelligence, in other words, information that is 
publicly acquired. Unlike a terrorist attack, where surprise is 
usually a component, we knew about Hurricane Katrina as early 
as August 23rd, when it was spotted off of Florida. It 
proceeded over Florida.
    Once it got in the Gulf, it got to be a category 4, then a 
5 storm, and then landed as a 4. And I learned after the event 
by Googling New Orleans and levees that the Louisiana Times 
Picayune had done about an eight-part series on the 
vulnerability of New Orleans and the levees and Lake 
Pontchartrain.
    So I guess my point is simply this: if we can be nimble and 
quick in obtaining publicly available information, processing 
it through and sharing it around, perhaps, when it comes to 
these natural disasters, we can anticipate what might happen. 
So my question to you again, as it was this morning, is do you 
feel that you have a robust enough capability to acquire, 
process, analyze, and disseminate information for a manmade, 
terrorist events as well as for these natural disasters?
    Secretary Chertoff. Well, first I want to thank Congressman 
Hayes for his comments. I think the answer is we are working 
toward that, but we are not quite there yet. Now, if we are 
discussing the issue of natural disasters, not intelligence, 
which is a separate set of issues, you know, we do acquire a 
lot of open-source information.
    Sometimes the reliability of it has to be tested and is 
kind of in question, but one of the things which we need to do 
to build out in the next couple of months is make sure we have 
better monitoring and better integration and better analysis of 
that open-source information, because you collect so much of it 
that it almost becomes--you have what they call a signal-to-
noise problem, and you have to be able to figure out what is 
really going on.
    So we are certainly--you know, it is not hard to collect 
it; it is hard to refine it and analyze it, and that is what we 
are working on doing.
    Mr. Hayes. I appreciate that answer. I will continue to 
pursue this issue, as I am sure you know and understand.
    I thank the Chair and I yield back to Robin Hayes the two 
seconds that remain.
    Mr. Shuster. Time is up. Thanks.
    Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for appearing before us this 
afternoon. I represent Eastern Long Island, the eastern half of 
Long Island, which is a low-lying area with about 300 miles of 
coastline. We have been lucky, we have dodged some bullets; we 
haven't had a catastrophic storm in almost 70 years.
    You said before that you saw preparedness as being related 
to both prevention and protection, so my question to you is 
what specifically are you doing within your Department and with 
other Federal agencies to deal with the issue of prevention and 
protection for low-lying areas like Eastern Long Island that 
are ultimately going to get hit?
    And also, what is your Department doing specifically? You 
outline four principles that you see guiding the way FEMA goes 
forward. What are you doing specifically with local government 
to deal with the issue of being ready to respond to a 
catastrophic storm?
    Secretary Chertoff. One of the things which the President 
mandated that we do and Congress then subsequently put into 
legislation was to go out to all the States and look at their 
evacuation and emergency response plans. We got an initial 
assessment which was due--Congress set a due date of February 
10th. We met the due date and we submitted it to Congress. We 
now have teams going out, working with the States to raise that 
level.
    Through the States, through the State government, we are 
going to have to--and a big State like New York presents some 
really special challenges. They are going to have to work with 
their local governments to identify what their most serious 
risks are. I think maybe 50, 70 years ago there was a huge 
hurricane that hit Long Island--
    Mr. Bishop. The last terrible storm was 1938.
    Secretary Chertoff. So it is rare, but, as we have come to 
learn, rare doesn't mean non-existent.
    We are certainly interested and available to work with 
local officials on an evacuation plan, for example. What I 
would say, though, is--and this is why I come back to the fact 
that it has got to be a very--it has got to be a locally 
focused plan and it has got to be very specific. They are going 
to have to ask themselves these questions: Do they have a 
transportation plan to reverse directional flow?
    If they are going to use it, do they know where the 
hospitals and nursing homes are, and is there a legal 
requirement that these institutions evacuate people who are 
infirm? Do they have buses they are going to use for people who 
don't have transportation? Do they have drivers and a 
commitment from the drivers and a contract to have their 
drivers evacuate? Have they mapped out where the buses ought to 
go and communicated to the public that if you don't have a car, 
go to this shelter and you will be picked up? That is, by the 
way, what Miami Beach does.
    So those are the kinds of things which we are going to work 
with the States on. But I guess I want to make this point 
clear: any county or locality that sits and waits for FEMA to 
come and give it a plan is going to find itself under water. 
Emergency planning has to begin at the local level, and if 
there are areas where there are missing capabilities, that is 
the kind of thing that we can help with and the State has to 
help with.
    Mr. Bishop. One more question. The Allstate Insurance 
Company has recently announced that they are not going to write 
any new policies on Long Island because of the risk associated 
with the likelihood of a storm. What assurances can you give us 
that FEMA will be able to coordinate the National Flood 
Insurance Program and will be able to work with the SBA to make 
sure that loans are available so that there is a stopgap for 
families and for small businesses?
    Secretary Chertoff. Well, as you know, one of the issues we 
have to address is the actuarial soundness of a flood insurance 
program. Obviously, people in a floodplain have to have flood 
insurance. I think people outside of floodplain are encouraged 
to get flood insurance. What would be a dangerous thing would 
be for someone who does not have flood insurance to say I am 
not going to purchase flood insurance, I am just going to wait 
for the Federal Government to bail me out. I think that would 
be a very dangerous and risky thing to do.
    Mr. Bishop. Thank you.
    Mr. Shuster. Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Secretary, for being here. I 
am from Louisiana, and in the immediate aftermath of Katrina, 
as soon as the winds abated, I had the opportunity to fly over 
New Orleans and get a comprehensive aerial survey of what had 
happened. And it immediately became clear to me that our State 
and local resources were overwhelmed with what was going on; we 
were going to need Federal help.
    We went back to the communications center for our largest 
emergency ambulance provider and we were getting real-time 
information back from the paramedics as to what was going on, 
and it was really clear that we were overwhelmed. We had major 
difficulties. We needed help.
    I started making numerous phone calls to the Department of 
Homeland Security, FEMA, White House, and so forth, trying to 
provide information to get help.
    On that same day the Incident of National Significance was 
invoked, but it is my understanding that the--let me get the 
term correctly--Catastrophic Incident Annex was not activated. 
And that is what kicks the Federal response into overdrive. Why 
did that not happen?
    Secretary Chertoff. I am glad to have the opportunity to 
clear this up, because I just think there is a misconception 
about this, and people have read the plan in a way that I don't 
think is correct. But I also have to say that if we are at the 
stage where we have to debate the meaning of the words in a 
plan, we ought to rewrite the plan so it is clear.
    The Incident of National Significance automatically was 
triggered by the Presidential Declaration of Emergency on 
Saturday. So the President, by declaring the emergency, did the 
Incident of National Significance.
    The Catastrophic Annex is designed in a case where you 
don't preposition, you don't have the time to preposition 
things. That would be the example of what would happen, for 
example, if there was a sudden attack. Here, there was specific 
pre-positioning, and I remember this because I was on the 
telephone call where, among other things, Colonel Smith from 
Louisiana talked about how they had looked at all these 
different things and they were satisfied that everything that 
was necessary was en route or pre-positioned.
    So in terms of the status on Sunday, we had things pre-
positioned, so the Catastrophic Annex, by its terms, apply, and 
we had an Incident of National Significance.
    Now, let me get to the substances apart from the paper. In 
looking back, it seems to me the problem is that there was an 
underestimation of what would be necessary in terms of all of 
the contingencies. I think there were millions of gallons of 
water and food, a lot of stuff, but I think where there was a 
failure was to conceive of what would happen if there was a 
levee breach that would actually totally fill the bowl.
    I am not saying people didn't anticipate the possibility, 
but there was no specific plan about if people don't evacuate 
the first round, what is our secondary plan for bringing buses 
in. And that seems to me to underscore where planning comes in.
    We have got to sit down--and you can't write these plans 24 
hours in advance. We have got to sit down and we are going to 
have to do it this year with Louisiana and say, okay, what is 
going to happen if Katrina replays? Do you have buses there? Do 
we now know that the drivers are going to stick around and 
bring everybody out? And, if not, can we get buses from other 
areas?
    Mr. Boustany. And, in fact, we did learn some of those 
lessons, because Rita came through my district shortly 
afterwards, and we were able to successfully get the evacuation 
done such that there were no lives lost.
    Secretary Chertoff. So this is really a matter, ultimately, 
of having the planners, the ground planners and the ground 
operators literally think through all these things. And I think 
it is a discipline. We are going to get the military, as we did 
in Rita, involved very early on, again, not at a high level, 
where everybody agrees in principle, but at the level of, okay, 
I want to know how many trucks, how many buses. And that is one 
of the reasons I said to Congressman Taylor, because there are 
going to be unique challenges, particularly in Louisiana and 
Mississippi, we need to start that planning very specifically 
well in advance.
    Mr. Boustany. That is right. You know, one of the other 
areas that we had trouble with was the fact that we had State 
barriers to getting additional emergency medical personnel in, 
physicians and others. We couldn't get the sign-off of the 
governor and others during the course of that. At what point is 
there an override where you can get around the red tape? I 
spent a lot of time on the telephone trying to break through 
red tape over a 48 hour period to allow for these 800 emergency 
medical physicians to come in, these other ambulance providers, 
and helicopter pilots and so forth.
    Secretary Chertoff. Well, you know, here is an area where 
maybe legislation needs to be looked at. I understand there was 
a problem with doctors coming, they are not licensed to 
practice. Your first impulse is, well, forget the licensing; I 
am a doctor, let me help out. But then, sooner or later, 
someone pops their hand up and says, well, if you mess up, you 
are going to get sued; and because you are not licensed, you 
will automatically lose and you will be wiped out. And that 
tends to make a lot of people go whoa, wait a second.
    Maybe one of the things to be looked at is whether, in an 
emergency of a certain category, you do allow--you have to 
balance protection of liability and allow people to do what 
they have to do, and if they act in good faith, give them some 
protection and maybe waive the licensing.
    Mr. Boustany. And this is all part of that aligning 
preparedness that you talked about earlier, where you are 
actually bringing in the private sector into this planning 
process.
    Secretary Chertoff. That is exactly.
    Mr. Boustany. And that is what we need to do. It seems to 
me the preparedness part of this was where the real failure 
occurred.
    Secretary Chertoff. I agree with that.
    Mr. Boustany. Thank you. I yield back.
    Mr. Shuster. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Secretary Chertoff, for better or for worse, today you are 
the most popular man in Washington, D.C. I appreciate your 
taking some time to come see us.
    I am on the Armed Services Committee as well, and I am sure 
we are going to be exploring some of the implications of the 
report that came out from Washington State. We are tucked up 
there in the Pacific Northwest, about as far north and west as 
you can get in the lower 48 from Washington, D.C., and quite a 
bit away from Louisiana.
    But I can tell you, speaking for folks at home, they were 
impacted by the images, and hearts were broken as much as any 
other hearts in the Country when we saw what we saw in those 
terrible days in Louisiana and Mississippi. I wanted to ask 
some questions sort from a practical sense that have come up 
since from our folks back home, and I apologize for being late 
and hope they haven't been asked yet.
    But I did have a question about the emergency management 
performance grants and the program, because they are something 
that allow States and emergency management heads the 
flexibility to hire and train staff, and the MPG program has 
authorized a 50/50 match between Federal and State dollars. But 
the program is underfunded and actually ends up, at least for 
our guys, as being about a 20/80 match. And the President's 
budget request proposes $15 million less in fiscal year 2006 
and, honestly, from Washington State's perspective, the 
emergency management folks, it is unacceptable. That program 
needs to be funded well to address not only issues in States 
like Louisiana and Mississippi and others, but also Washington 
State.
    I am wondering if you can help us understand why there is 
less money proposed in that grant program this year than over 
the last.
    Secretary Chertoff. I think there is generally a view that, 
with some limited exceptions, programs that fund personnel 
costs, salary and things of that sort, are funding the kinds of 
requirements that are really traditional State and local 
requirements. There are some exceptions where we think that 
there are personnel costs that have been imposed on a State or 
locality where there is some particular national externality or 
national element that we should, in fairness, pick up, like 
when we raise the alert level to orange, we do allow for 
overtime.
    But, in general, there are many worthwhile first 
responders. First responders are critical. But, in theory, that 
would put the Federal Government in the position of paying for 
all the police and all the fire and all the emergency personnel 
all over the Country. So I guess as a matter of policy we try 
to really move away from paying for personnel and getting into 
paying for equipment, capital expenditures, research into kinds 
of technology that we couldn't fairly expect the city or State 
to be able to conduct itself.
    Mr. Larsen. I appreciate that answer. I think something 
that came out of Hurricane Katrina and Rita is that there is, 
for a lot of people, a realization that although we have a 
debate about what the appropriate role of the Federal 
Government is in the Country, I think what Hurricane Katrina 
and Rita demonstrated to a lot of people is that when it comes 
to natural disasters, sometimes the only tool in the toolbox 
that is big enough to deal with these things is the Federal 
Government. And not that we are ever going to have a Hurricane 
Katrina or Rita size event in Washington State, it might just 
be another volcano exploding or an earthquake, but still that 
role of the Federal Government has to be there, and it has to 
be there to help because it is the only tool big enough.
    This gets to another question from some of our emergency 
management folks. They are concerned about the inability, what 
they see as an inability of FEMA to respond to natural or even 
manmade disasters, and I think there is a concern about your 
comment about hiring 1500 new full-time employees as year-round 
coordinators. Not that there is any opposition to that, but 
that the response is those positions were there earlier, but 
they were moved to focus on terrorism, and now you are just 
sort of trying to move those folks back. Are these new folks or 
is this a shuffling, one side to the next?
    Secretary Chertoff. First of all, we haven't arrived at a 
number. I think a reporter tried to guess the number, and I 
don't think her guess is necessarily correct. This is not 
moving people back, this is--right now, most of our disaster 
assistance employees are volunteers, they go out into the 
field. And in the ``normal routine'' disaster, that probably 
works pretty well, and I certainly appreciate the work the 
volunteers do. But I think we recognized in Katrina, when you 
have a real catastrophe, it requires a level of professional 
training that is more sophisticated and also requires more 
sophisticated equipment and training in use of the equipment.
    We haven't settled on a number yet. What we are looking to 
do is have a core of people who are very specialized in this. 
And then if we need to surge up--essentially, they would be 
like the non-coms around whom we would build the volunteers so 
that the volunteers could then have available to them, as they 
go out into the field, a better set of resources. We have not, 
however, settled on a number. And although we do have increased 
money in the budget for additional personnel, we haven't 
figured out exactly how we are going to--exactly what the 
number is going to be or how we are going to allocate it.
    Mr. Larsen. If I may just follow up. So you are telling me 
that whatever number it is, it is not a matter of moving people 
back from where they were?
    Secretary Chertoff. Correct. That is not what we are doing.
    Mr. Larsen. It is new people doing new things.
    Secretary Chertoff. It is not going to be people who went 
over to terrorism who are coming back. There may be some people 
who work in FEMA at other jobs who we will train in times of 
emergency to do this function; and then there will be some new 
people as well. The exact number, or even close to the exact 
number, hasn't been determined yet.
    Mr. Shuster. The gentleman's time has expired.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Shuster. Mr. Reichert.
    Mr. Reichert. Thank you, Mr. Chair.
    I have got to catch an airplane and I know you want to 
leave. It has been a long day for you yesterday and today, and 
I am going to talk fast.
    I was a sheriff in my previous life, 33 years of law 
enforcement experience as a sheriff in King County in Seattle, 
and my issue is first responders. I also am fortunate enough to 
chair the Emergency Preparedness Subcommittee under Homeland 
Security. I was afforded a classified briefing by people from 
your Department. It was held last week, I believe. We made a 
phone call, I hosted the event and a number of members of 
Congress were there, and we appreciate your having your people 
attend and inform us of the formula that was used in risk and 
threat-based analysis.
    My issue, as I have stated this morning in your 
presentation at Homeland Security, is COPS, and it is personnel 
costs versus the costs going to all the Federal agencies. There 
are those costs. I think when local agencies provide their 
personnel to intelligence gathering efforts for national 
security purposes, the joint analytical centers, for example, 
and the joint terrorism task force, I would just ask you to 
please consider assisting local police departments and sheriffs 
offices across the Country in providing funding for those 
people who are engaged in those non-traditional roles of law 
enforcement, now that we have expanded into this new arena of 
homeland security.
    My second issue--and we talked a lot about that this 
morning too--was interoperability. I don't believe that the 
answer to interoperability is more and more funding, more and 
more money. You and I agreed this morning it was leadership, it 
was management, it was performance measures.
    And I was excited to hear your firm commitment and your 
passion that you expressed this morning for raising the 
priority to the highest level within the Department of Homeland 
Security as far as interoperability is concerned, and to fully 
staff the Office of Interoperability and Compatibility. You 
have four staff people now. I think in your FTE count it should 
be 16. So we have to work together to try and make that happen.
    I want to just touch on--how long have you served as the 
Secretary?
    Secretary Chertoff. One year and one day.
    Mr. Reichert. One year. And how many departments have been 
consolidated?
    Secretary Chertoff. Twenty-two.
    Mr. Reichert. Twenty-two departments. And how many 
employees?
    Secretary Chertoff. A hundred and eighty-three thousand, 
approximately.
    Mr. Reichert. And you haven't solved all these problems 
yet?
    Secretary Chertoff. That is going to take a few more weeks, 
probably.
    Mr. Reichert. You know, I had experience in the sheriffs 
office. I had 1,100 employees; I had a $110 million budget. I 
consolidated 40 people into an agency with 1100--it took me two 
years to finally get people to work together. And part of it 
was the union agreements and the labor agreements and the 
disparity in pay and benefits, and I know that is something 
that you have to work on and we have got to get that fixed. 
That will bring people together.
    Secretary Chertoff. Correct. It will.
    Mr. Reichert. How many committees do you report to?
    Secretary Chertoff. I have got, I would say on the House 
side there are three authorizing committees and obviously the 
Appropriations Committee. On the Senate side I think there are 
three authorizing committees and one Appropriations Committee. 
I hope I didn't miss a committee. Actually, probably four, 
because the Intelligence Committee is also--
    Mr. Reichert. Does that include the subcommittees? I heard 
there were 66 committees that really--
    Secretary Chertoff. No, I am just going full committees, I 
am not talking about--
    Mr. Reichert. Well, there are 66 committees, at least that 
I know of, that your agency reports to, which is absolutely 
unheard of. So maybe what we ought to do is--you ought to do, 
sir, is to follow the example of Congress and create a 
Secretary of Homeland Security of FEMA, of Preparedness, of 
TSA, of FBI, DEA, and we just divide these all up and make 66 
secretaries. Maybe that would work.
    Secretary Chertoff. Well, we would certainly have a lot of 
people to testify, but we would have a very stovepiped and 
fragmented response to everything.
    Mr. Reichert. I have nothing further, Mr. Chairman].
    Mr. Shuster. Thank you.
    Mr. Gilchrest.
    Mr. Gilchrest. Thank you very much, Mr. Chairman. 
Appreciate it.
    Mr. Secretary, if you haven't been to Secretary Rumsfeld's 
place on the eastern shore of Maryland or the Vice President's 
place on the eastern shore of Maryland, I would like to invite 
you to my place on the eastern shore of Maryland to go to 
canoeing. I am about an hour or so north of them. I think my 
area is a little prettier, a little contour to the land, and we 
will paddle up a beautiful little tidal basin being followed by 
the eagles, the osprey, turkey buzzards, and a number of other 
wildlife things. So just a moment of respite. If you need one, 
we are always over there.
    Secretary Chertoff. Say when.
    Mr. Gilchrest. Sunday morning. I will have the coffee and 
the eggs ready. I will give your staff the directions.
    Secretary Chertoff. That sounds great.
    Mr. Gilchrest. Okay.
    I would like to ask some questions about Mr. Boustany used 
the phrase the line of preparedness. And I would like to go--
you have been through the gamut here, whether they are trailers 
or buses or how to deal with the preparedness issue during the 
storm and after the storm. And I think we have all learned a 
great deal about how to resolve some of these very difficult 
issues under this type of catastrophic event with the local 
government, State government, and the Federal Government.
    I would like to take a look at coastal Louisiana. If we are 
to be prepared--I know there have been a lot of problems in 
Mississippi. My good friend from lower Mississippi is here 
today, and he has experienced a lot of those tragic events, and 
helped and lived through them. But I want to focus just on 
coastal Louisiana.
    There was a report put out some time ago that it is still 
being worked on, there is still some draft scientific evidence 
coming to a conclusion that by the year 2050, if nothing was 
done in Louisiana and we had reasonably expected storm cycles 
and calm cycles, we would lose about 500 square miles of 
coastal Louisiana. If they did everything that they could and 
had $14 billion, they would only lose 250 square miles of 
coastal Louisiana.
    So if we are going to save much of New Orleans and lower 
Louisiana, I think my message to you is three things, all big-
picture observations: to understand clearly the hydraulogic 
cycle of a third of the United States, a third of the U.S. 
drains right through Louisiana. And then look at the hydraulic 
system that we have put in place to move that water with pumps 
and levees and channels and canals, etc., to protect New 
Orleans, the infrastructure of oil and gas, communities and 
towns and so on.
    Then, if we take that and understand that lower Louisiana 
is subsiding, it is sinking, for a variety of reasons, but in 
fact it is being compressed, so it is getting lower, sea level 
is rising. The area of protection is being eroded away. The 
area of protection is the sediment coming down the Mississippi 
River that used to provide for fast land.
    That sediment provided for more land. That sediment has 
been channeled either by dams upstream or by pumps before it 
gets there, or it shoots right out into the outer continental 
shelf of the Gulf of Mexico and is of no value. The other thing 
is the marshes and the wetlands that, on average--and Dr. 
Boustany knows this--about 25 or 30 square miles are lost every 
year. In this hurricane, Katrina, 100 square miles was lost.
    So line of preparedness. Look at the big picture of the 
hydraulogic cycle going through Louisiana. How do we protect 
that barrier which protects the economy, which is oil and gas, 
tourism, fisheries, but the cities? What do we do to understand 
the hydraulogic cycle and what do we do to protect that marsh 
area in coastal Louisiana that fundamentally protects what we 
all know about Louisiana?
    I am sorry for that diatribe, but that is sort of the big 
picture.
    Secretary Chertoff. I agree, I think it is the big picture. 
Preparedness is what we do for right now, in terms of things 
that are going to happen that we can't stop. But you are really 
asking fundamental questions which have to be answered to 
really understand the configuration of the Gulf Coast and 
rebuilding over the next 20, 50, 100 years.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    Mr. Shuster. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I apologize to the Secretary that I was called off campus 
and had to leave. I would like to give you an opportunity to 
respond to my criticism about bifurcation of FEMA itself within 
DHS. We can't find any experts in emergency response that agree 
that you improve matters--they all argue you make matters 
worse--if you separate preparation, response, and recovery. 
Your second stage notion, as I understand it, was separate out 
preparation. I think you were responding to FEMA'S failure.
    But how would you respond to them that these three notions 
are not just interrelated, they are part of continuum, they are 
seamless if you separate and create another bureaucracy, not 
under FEMA, that is in charge of preparation, and then 
everything else somehow is left with FEMA?
    Secretary Chertoff. This is how I would respond. First of 
all, I want to say that we came to this conclusion actually 
talking to emergency managers, inside and outside, military 
people who talked to us about how they reorganized the Defense 
Department to make it operate in an integrated fashion. I agree 
with you about the continuum.
    I think the problem--I have to begin with this proposition: 
When preparedness in FEMA was separated from other elements of 
preparedness, because preparedness covers a lot of things, it 
covers protecting infrastructure, it covers law enforcement, it 
covers intelligence. When preparedness was linked up with FEMA 
in a separate directorate, which was what the situation was 
when Katrina hit, preparedness had not been done.
    When I came into the Department, there were large elements 
of preparedness that had not really been attended to, and I 
think, frankly, part of that is because, at bottom, FEMA is an 
operational agency and has to be able to really respond to an 
emergency and a crisis doing the kinds of things like moving 
supplies, going into afflicted areas, providing relief. And 
since we know that the Country, at a minimum five to six months 
of the year, were going to have a series of those, if not 12 
months a year, the head of that combined directorate is 
inevitably drawn to dealing with a crisis and not paying 
attention to the long-term planning.
    What I wanted to do was I wanted to integrate, exactly as 
you say, the whole spectrum of preparedness, recognizing that 
some of it is intelligence, some of it is prevention, some of 
its protection, and some of it is response. And the idea isn't 
to disconnect FEMA from preparedness, but it is, rather, to 
have preparedness draw upon all of the disciplines that we 
have--FEMA, Coast Guard, the law enforcement agencies that we 
have, TSA, which gets us transportation--so that when you draw 
plans and when you do grants and training, you are looking 
across the entire spectrum of what the needs are and 
recognizing, by the way, that in some places they need to 
differ.
    I will give you an example like Washington. Take 
Washington, D.C. Sure, an element of preparedness in Washington 
is response: evacuation; recovery; what do you do if there is, 
bringing health care in if there is some kind of a disaster.
    But another critical element is prevention. What do we put 
up in order to make sure that we have fused intelligence, that 
we have trained our law enforcement to prevent a terrorist 
incident from occurring or dealing with it if it does occur? 
How do we build protections around our critical areas of the 
city?
    And if, in dealing with preparedness, the District of 
Columbia had to go to FEMA for dealing with one kind of 
preparedness, and to a law enforcement agency to deal with 
another kind of preparedness, and to an infrastructure 
protection component for dealing with another kind of 
preparedness, we would simply be continuing the stovepiping 
that we have been trying to fight in other parts of the 
government, where the firefighters don't talk to the police, 
who don't talk to the emergency managers. I mean, you can go to 
some cities and some of them get along great. In some cities--I 
am not saying Washington--the fire chief and the police chief 
barely speak to one another.
    So our vision was look at the whole thing as a system, 
preparedness. And it is not that you don't want to have the 
operators, the experts like FEMA, involved. You want to have 
them involved like we have Coast Guard involved with 
preparedness. But you want to have someone who owns the process 
and the responsibility for the outcome across the entire 
spectrum.
    The one other thing I ought to put into the mix to give you 
a full picture of what we want to do is we do need to have 
regional preparedness, and there we do want to fuse 
preparedness and the FEMA regions. And I think the vision we 
have is to put in each of the FEMA regions a cell of people 
from preparedness and a cell of military people from NORTHCOM 
and the people who are the FEMA response people in the region, 
and have that combined, unified group work with the governors 
and the mayors in that region to actually do this integration 
of preparedness and response.
    So I do think we have taken account of the issues you have 
raised, but at the end of the day I have to look at somebody 
and say, you know, you have got to own preparedness, and you 
can't be off running around dealing with all the emergencies 
that are going to overwhelm you. You have got to be able to get 
your team together and do planning and discipline day in and 
day out, whether there is a hurricane, whether there is a fire, 
or we are never going to get this thing done.
    Ms. Norton. I can see you are responding to the police side 
of emergency management, but I am not convinced--and perhaps we 
can discuss it at some later point--how creating yet another 
bureaucracy within the Department makes us ahead. At least I 
understand something of what you are doing.
    Could you just take me through, finally, the whole notion, 
the perpetual criticism about roles and responsibility? One of 
the reasons that taking FEMA out of DHS and making it nimble 
seemed to make sense is because it has to move quickly. I still 
don't know who is designated to do what.
    I know who is in charge. The President of the United States 
is in charge; you are in charge. But I want to know if a 
disaster, all-hazards, any disaster occurs tomorrow, what 
happens? Who responds? Who is designated to respond to what? If 
you could just go down the list.
    Secretary Chertoff. Sure.
    Ms. Norton. And what happens if the State and locals 
somehow don't respond next time?
    Secretary Chertoff. Let me divide disasters into two 
categories: routine disasters and catastrophes. Routine 
disasters, which we have year-in, year-out, even big ones, 
State government is usually the principal--
    Ms. Norton. I am only interested in ones that involve 
principally your action because they are so massive.
    Secretary Chertoff. Okay. Okay. So now if we deal with a 
catastrophe, I have the responsibility in DHS to be the 
incident manager. That does not mean, by the way, I have 
command and control over the entire United States Government, 
but it means I have to manage the process under the same system 
that governors use to manage their States.
    Ms. Norton. So FEMA has to go to you first.
    Secretary Chertoff. No, they don't have to go to me, 
because--and the model I would use is the Coast Guard. I don't 
actually require FEMA to come and ask me permission to do 
things. What I do is I appoint somebody to manage the incident 
in the field. And that person has the power to coordinate all 
of the tools of the Department and all of the tools of the 
Federal Government and assign everybody--
    Ms. Norton. Is that person appointed right now?
    Secretary Chertoff. The person is appointed for the 
particular catastrophe depending on where it is and what it is.
    Ms. Norton. So that has to happen. Is there somebody you 
could tap tomorrow?
    Secretary Chertoff. Yes. I have got a list of people. Last 
time, after Mr. Brown was removed, I went to Admiral Allen, and 
he went down. And we have a list of people who are trained to 
do this. Some of them are senior members of Coast Guard or 
Secret Service or other components who have been specifically 
trained in managing incidents, have a lot of operational 
experience.
    Depending on where the incident is and what the nature of 
the incident is, it might be a different kind of a person. 
Obviously, in a maritime environment you might go to Coast 
Guard; in a city you might go to someone with urban experience. 
It doesn't even have to be a person from DHS; I can reach out 
to somebody outside.
    Then, at that point, there is no bureaucracy involved. The 
incident is managed at the lowest level, with people who are in 
the field, like the combat general, and they have available to 
them all of the organs of government. All they need to do is 
say to the Department of Transportation you have to produce a 
transportation capability to do x, y, z; or, to the military, 
you have to produce a medical surge capability. If we have 
planned it properly, that capability is available and begins to 
move immediately.
    What we need to do, though, is to complete this process of 
process and integrating. And that is what happened us in 
Katrina.
    Ms. Norton. Mr. Secretary, suppose--
    Mr. Shuster. The gentle lady's time has expired.
    Ms. Norton. Can I just--
    Mr. Shuster. As long as this is it.
    Ms. Norton. This is it. Thank you.
    Let us assume that the State and locals aren't on point 
once again. What do we do about the fact that the procedure 
requires us to go through--and, understandably, this is a 
Federal republic--go through them, wait for them?
    Secretary Chertoff. It doesn't require that.
    Ms. Norton. That is what we were told. We were told that 
because they didn't respond, that is what the problem was.
    Secretary Chertoff. No. Generally, the expertise--look, the 
people who know the community best are the local people. And 
one of the reasons we do want to be a little more regional is 
to get a little more visibility into what is going on locally. 
But I can tell you from New Jersey, where I am from, the people 
who know best what is the best way to evacuate New Jersey are 
people from New Jersey.
    Ms. Norton. Well, they didn't know best in New Orleans.
    Mr. Shuster. The gentlelady's time has expired. You have 
gone over five minutes.
    If you want to sum up, sir, then we will go to the next 
question.
    Secretary Chertoff. Obviously, if the people in--let me 
pick my own State, just so we don't get into a thing about 
Louisiana--and I am sure in New Jersey they do it great. But in 
the first instance we would go to the people in New Jersey and 
say what is the best way to evacuate, what is the plan. If they 
didn't know or they were incapacitated, then we would have to 
then build a plan. That would take more time.
    And one of the reasons we are doing, right now, this 
exercise of checking everybody's plans is because if the State 
were incapacitated, at least we would have the benefit of a 
plan that we have prepared in advanced and we can say, okay, 
here is the plan for New Jersey, here are the highways you have 
got to reverse contraflow on, here are where you have to put 
the fuel bladders so people can get out of town.
    I mean, this is a very complicated system that requires--we 
don't need the States to do it, but we have got to have plans 
in place or we are not going to know the terrain in the way we 
need to know to do it effectively.
    Ms. Norton. Thank you, Mr. Chairman, for your indulgence.
    Mr. Shuster. Thank you.
    Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    Good to see you again. My district down in Southeast Texas 
is somewhat unique, it is like Mr. Boustany's in that we border 
each other. The Sabine River separate us, Louisiana and Texas. 
Katrina hit and about 250,000 from Louisiana came right through 
Jefferson County, headed to Houston and other parts.
    About 25,000 of them stayed in Jefferson County. Took care 
of them, put them up, fed them, clothed them, sent them to 
church. Then Rita hit. So we were hit twice. And we have a 
double problem, as in western Louisiana, because they have two 
hurricanes in a very short period of time.
    I will be very candid with you: the people in Texas feel 
like they are treated like second class Americans because of 
Hurricane Rita. It is the forgotten hurricane. All we hear up 
here in Washington is Katrina, Katrina, Katrina. There were two 
hurricanes. Rita came through an area the State of Texas that 
produces 25 percent of the petrochemical products for this 
Country. Local responders took care of business, and to this 
day they feel like they are being treated differently by, 
specifically, FEMA and other government agencies.
    I have a few questions. And I appreciate, being a former 
prosecutor, you know, the brevity of a witness, just answering 
the question.
    The City of Beaumont has incurred about $8.5 million. They 
have asked to be reimbursed for that out-of-pocket expenses. 
They are working on the forms. They heard first they could get 
an advance on that; now they hear they can't. Their problem is 
they are spending $32,000 a month in interest to the local 
banks. Is there any possibility they can get an advance, or do 
they have to finish all the paperwork first?
    Secretary Chertoff. I don't know the answer, but I will 
find out.
    Mr. Poe. Okay. Thank you.
    Next concern that I have is, being a former judge, I have 
read, as everyone else has, the absolute criminal conduct of 
some people that are preying on these two hurricanes, the 
people that are stealing social security numbers from dead 
people and then making a profit out of it, and then spending 
the money on all kinds of things that we probably shouldn't 
even talk about here in this Committee hearing.
    I think those people need to be in jail. And anybody in the 
Federal Government that helped and abetted in that, they need 
to be in jail as well.
    Now, we hear about the abuses. My question is is there any 
plan to get those people locked up and prosecuted?
    Secretary Chertoff. Yes. The Department of Justice set up a 
task force working with our inspector general and other law 
enforcement officials, and they have in fact, I think, 
prosecuted and will continue to prosecute people who have 
ripped off the system
    Mr. Poe. And my last comment has to do with waste. It seems 
to me that having 10,000 mobile homes or trailers or 
manufactured houses, whatever you want to call them, worth $50 
million sitting up in Hope, Arkansas--some reports that they 
are sinking in the mud--is FEMA planning to use those trailers?
    Secretary Chertoff. Yes. The answer is yes. We envision or 
we predict that of the 18,000 to 20,000, maybe about 8,000 or 
9,000 will ultimately be used in places that are not in a 
floodplain for Katrina and Rita people. Others will be used in 
other parts of the Country where we don't have a floodplain 
issue. Some have been used, for example, where there are 
wildfires. And they actually envision that the remaining 9 or 
10,000 will be, in the normal course, used for people who are 
displaced for all other kinds of disasters during the coming 
year. So it is anticipated that they will in fact all be put to 
use.
    Mr. Poe. I have a suggestion where to store those, rather 
than in Hope, Arkansas. Nothing against Arkansas, but down on 
the south Texas border, as you know, we are looking for places 
to house people that illegally come into the United States, and 
we could use those 10,000 trailers down there to house 
illegals. And if they are needed in a disaster, than use them 
in a disaster. But maybe you might consider doubling up on 
those trailers and using them as temporary residents for 
illegals until they are deported back to their home country. 
Just a suggstion to you.
    Secretary Chertoff. That was actually suggested at a 
hearing I was at yesterday, and then someone raised the 
objection that if the mobile homes were too comfortable, it 
might actually encourage people to migrate across the border 
because they thought they would get better housing.
    Mr. Poe. We can hook them all up and just take them further 
south of the Rio Grande River, back to the countries those 
folks come from, if that is a problem.
    Thank you for being here and spending the day with us, and 
the Texas delegation especially yesterday.
    Secretary Chertoff. Thank you, Congressman.
    Mr. Shuster. Mr. Secretary, I want to take the opportunity 
now to ask a few questions that I have. I became chairman of 
this subcommittee about a year ago, about a month more than you 
came on as Secretary, so in some regards I feel like I have 
been going through this with you, although not to the intensity 
that you have had to go through it.
    All throughout this last year I have been talking to people 
around the Country that understand emergency management, their 
thoughts on when you brought your second stage review, we were 
talking to local and State folks about their thoughts, and my 
concern is, as we are moving forward again, there is a sense, I 
bleieve, in Congress that wants to take FEMA out of DHS. You 
have made your position known; you don't think that would be a 
wise thing to do.
    But I think it is important for us, instead of just getting 
into an Administration and Congress fight over this, what do 
the stakeholders say, and that is the States, I think, are 
major stakeholders. So can you tell me how have you included 
them in this process as we move forward? Because when they took 
preparedness out two years ago, when it came together, the 
State emergency managers were opposed to it, so we didn't 
listen to them. So can you talk to me a little bit about that?
    Secretary Chertoff. You know, when I went through the 
second staeg review, we, in fact, went out and talked to a lot 
of emergency managers. I talked to some of them myself; others 
in the process talked to them, State, we talked to experts 
inside the Federal Government, and we continue to do so.
    And when I had the emergency managers and the homeland 
security advisors in at the beginning of August last year, we 
talked pretty candidly about this, and I understood that--and I 
have to step back and say I have been in law enforcement and I 
have been in this job, and if I sit down with a bunch of police 
chiefs, all I am going to hear from them is you are giving all 
the grant money to the first responders.
    And if I sit down with the emergency managers, I am going 
to hear you are giving all the money to the police chiefs. And 
I feel very strongly we need to have an honest broker in the 
middle, someone who can look at the entire range of needs and 
make sure we are funding and training the entire range of 
needs.
    And one of the things I committed to was that the decisions 
would be made by having people from FEMA participate in the 
preparedness directorate, by having people from Coast Guard and 
law enforcement. So I did involve them in the process, and as 
we go forward with the lessons learned I want to continue to 
talk to them.
    Mr. Shuster. And I think I understand what you are saying, 
because I talk to folks and hear about the money issue, but I 
am talking more about the structure of it, because at the end 
of the day they are the end-users, the local firemen, the local 
folks, the State emergency managers. They are the customer. And 
it is important for us not to be an honest broker, but listen 
to them on how they function.
    And it is my concern, as I go around the Country now 
talking to people--and we are going to be holding hearings next 
week out west--their concern is that preparedness and response 
is not linked.
    I am also a student of history, and you look back to when 
we set up FEMA in 1979, 1980, after Three Mile Island. 
Preparedness and response were not together, so we created 
FEMA. In the 1990s they experimented within FEMA to separate 
response and preparedness, and it didn't work. And you made the 
point that you were operating under the old system, and that 
was preparedness and FEMA are separate, and it didn't work.
    Secretary Chertoff. Well, they were together. Under the old 
system we had, the first two years of this Department, we had a 
directorate of preparedness and response, which in theory did 
exactly what you say, it unified the two. The problem is that 
the battle rhythm of the agency as an operational agency 
understandably focused on the crisis and, as a consequence, the 
preparedness was not really being integrated. And what I want 
to do is make sure that we have people like the military, they 
have planning people who are different than the operational 
people and different than the combat people.
    Mr. Shuster. But they are out there practicing every day. 
That is almost akin to having a practice team and a game team, 
and if they are not working in practice on those things when it 
comes game time, they are not going to perform well. And I 
think with emergency management that is the sense I am getting, 
not from me, but from what I hear from the folks out in the 
field. And I know there are differences of opinion out there, 
but I think that is something we have to weigh heavily on.
    Secretary Chertoff. Can I just--
    Mr. Shuster. Sure.
    Secretary Chertoff. I think we agree more than may appear, 
for this reason. The structural issue is a question of 
accountability and making sure that there is somebody who owns 
the responsibility to fix the problem.
    But I completely agree with you that they have to be 
integrated across the board. And one of the reasons I mentioned 
this regional issue is because I think as we get into the 
operational area, which is the regional interaction with the 
actual responders, there I do see a unified effort, where we 
do, in a unified command or a unified place, put our FEMA 
people, our preparedness people, and our military people to do 
exactly what you say.
    Mr. Shuster. Another thing that troubled me, and what I 
hear from the States and some of the local responders, but I 
know now that you are in the process of hiring a FEMA director, 
and I understand that a couple people, significant emergency 
management folks have turned it down. And the word that I hear 
is that they are turning it down because they are not confident 
that we can go forward the way that is proposed. Can you touch 
on that a little bit?
    Secretary Chertoff. Yes. I don't think that is an accurate 
story. I think that there are some very experienced, well-known 
names that we have spoken to, and we have not made a decision 
yet. Sometimes people take it, matter of fact, because of 
family issues, but the people that I have spoken to I think are 
very excited about what we are trying to do.
    And one thing I will tell you is we are looking to get a 
real superstar, and the example I give you is George Foresman, 
who we put in charge of preparedness, who I think you can go 
around anywhere and people are going to say this is the kind of 
guy we ought to have doing this.
    Mr. Shuster. I met with George just yesterday. Excellent 
guy.
    But I am still hearing there have been people saying no 
thanks. So that is a concern.
    And my final question is from the Katrina Committee, which 
I served on, one of the findings we had was that the President 
was not receiving advice and counsel from an emergency expert, 
a senior, experienced person on the ground. So how, moving 
forward, are we going to rectify that situation? Because you 
are a capable, bright individual, but some would say now you 
are an emergency expert after your battle-testing Katrina.
    But what are we going to have set up that the President can 
confer, just like he does with the Joint Chiefs or the military 
experts, are we going to have something like that?
    Secretary Chertoff. Well, first of all, I probably am more 
of an expert now than I was, but one thing I think I have been 
pretty forthright about is I am not going to substitute my--try 
to pretend I have the experience of a 30-year-old manager. I 
have got to get the right person in charge of FEMA.
    At that point I think I will be able to give the President 
and make them available to give the President the kind of 
advice the President needs to hear directly from someone who 
has a substantial amount of operational experience. That 
requires putting the right person in charge of FEMA, the right 
person in charge of preparedness.
    Mr. Shuster. I don't have any more questions, but I have 
told a couple of members I would give them a second round. I 
know you have time constraints. So what I am going to do is do 
a three minute questioning, and I think, Mr. Boustany, do you--
I am really only going to do three members, the Ranking Member, 
Mr Taylor, and Mr. Boustany. So I will start with Mr. Taylor.
    Mr. Honda. Mr. Chairman, with your indulgence, I have one 
more question to ask.
    Mr. Shuster. We will see how we go here, because we have 
time constraints on the Secretary also, and we want to be 
respectful of his time. Let us see how these go here. If Mr. 
Taylor can be brief, we might be able to do that.
    Mr. Taylor. Mr. Secretary, I am told that you are also in 
charge of the Federal Flood Insurance Program.
    Secretary Chertoff. Well, it is part of FEMA, correct.
    Mr. Taylor. As you know, in the authorization bill that 
passed just before Christmas, it was $4 billion for the people 
of Mississippi who lived outside the floodplain, who had 
homeowner's insurance, were denied their claims. So our Nation 
stepped forward to do what the insurance industry should have 
done and didn't do.
    I say this because I think if the private sector is going 
to fail us that miserably, then our Government has the 
obligation to try to do what is right. Which leads me to the 
question would you be willing to work with Congress on the 
creation of a natural disaster insurance program--not a floor 
insurance program, natural disaster and terrorism--where the 
premiums are based on the risk, where it doesn't matter if a 
person's home is destroyed by wind or water or tornado, it is 
gone, and if he has been paying his premiums and doing what our 
Nation asks him to do to try to protect that property--because 
what I fear is going to happen in Mississippi, the next storm, 
people are going to stay in their house with a video camera and 
video record their houses being blown away in order to get a 
claim paid, because that is the only way that shameful industry 
is going to pay a claim. And it shouldn't come to that.
    Second thing is it is now a good six months since the 
storm. With satellites we can tell the elevation of every 
square inch of America from space instantaneously; yet, FEMA 
has not come forward with hard and fast flood maps. You have 
issued recommendations. On the Mississippi Gulf Coast you have 
full-time mayors, but every governing authority or part-time 
city councilman and businesspeople full-time.
    So what your professionals are afraid to do, you have 
punted to a bunch of part-time elected officials. That is not 
fair, quite frankly. If your organization won't take a stand on 
the elevations and what they should be in order to ensure 
people, you cannot force that decision on part-timers. That is 
just not right. And it is not fair to the taxpayer at the end 
of the day, because right now all you have is recommendations, 
and most of the cities are responding by going up four feet. In 
the case of my home, that would still put me about 11 feet 
under where the storm went.
    And I would like to hear your suggestion on that, because I 
have got to tell you, as an individual, I now face this 
dilemma, of building a one bedroom, myself, a shack that is a 
throw-away house where I just say I am not going to get Federal 
flood insurance, the heck with it, or spending a substantial 
amount of money to go 26 feet up in the air, which is where the 
storm went. And we can measure how high the storm got by the 
debris line on the trees.
    So I really think your organization, if you were doing this 
on a business-like basis, instead of having hard and fast 
rules, would incentivize people to make the extra investment 
and say this is your rate if you go up above Katrina, this is 
what you are going to pay if you choose to do it at ground 
level, and incrementally have a price somewhere in between for 
the people who are willing to--if they are willing to accept 
some risk, then you should be willing to accept some risk, or 
vice versa. But what you have done now, quite frankly, is 
absolutely nothing since the most catastrophic storm that has 
ever hit the Continental United States.
    Secretary Chertoff. Let me address both of those. First of 
all, I certainly would be willing to discuss the possibility of 
a national disaster insurance fund, particularly one that 
requires premiums and that is actuarially sound. I think that 
is very important.
    Mr. Taylor. Absolutely.
    Secretary Chertoff. I think that is very well worth talking 
about, because I recognize the fact that that lets people make 
judgments about appropriate risk, because they have to decide 
what premium they want to pay.
    With respect to the flood maps, I know that the advisory 
flood base elevations have gone out. I know the general 
recommendation of FEMA is to have those adopted as local 
ordinances and use those as the standards, recognizing that the 
flood map calculations and the flood map issuance, which is 
probably not due until the fall, is likely to be very close to 
that, it may be slightly different.
    And as far as the question of whether we ought to give 
people a series of options, a certain level gives you a certain 
measure of protection, I am all--
    Mr. Taylor. And a certain premium.
    Secretary Chertoff. Yes. I am all in favor of that. I think 
that what you were suggesting makes a lot of sense. We ought to 
have a program that really empowers people to make decisions. 
They decide how much risk they want to take, they decide how 
much premium they want to pay, and then we get--you know, 
people are going to make rational judgments. We clearly know--
and one of the things I know is being looked at in these 
lessons learned is maybe we need to look at the whole flood 
insurance program and the way we do it now. And I think this is 
exactly the kind of thing we ought to be talking about.
    Now, I don't think that is going to get all retooled by 
this June. I do know we want to get the flood maps out. I know 
that it is not just elevation; there are engineering issues, 
there are questions of historical loss. I am not an engineer, I 
am not a flood map expert, but I do know the AFBEs, if adopted 
by local ordinance, will give, I think, an approximation of 
what would be a good flood elevation level based on projecting 
what we are likely to get in the flood maps.
    Mr. Shuster. The gentleman's time has expired. We really 
have got to move on.
    Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    Mr. Secretary, as a heart surgeon, I would never go into an 
emergency operation or even a complicated operation without a 
well organized team. And you mentioned the spectrum of 
preparedness and these cells of unified command, but we have 
got to somehow get that down to the local level so that it 
really is a seamless system.
    And one of the things we experienced both in Rita and in 
Katrina was that in the surge capacity that was implemented, a 
lot of inexperienced volunteers were down there under the 
auspices of FEMA, and somehow we have to have a more organized 
approach to that, with people on the ground in that surge 
capacity that know what they are doing. So I hope you have some 
thoughts on that.
    Secretary Chertoff. Well, we do want to have a cadre of 
experienced people in disaster management, so that when we 
surge we can put them in and then build volunteers around them.
    But I have got to say there is also a fundamental issue. At 
the end of the day, unless FEMA becomes 25 or 30 times the size 
it is now, you are not going to have a permanent group of 
people who are going to be ready to come in and really 
professionally do things. So we have got to strike a balance 
between doing a better job of getting a core of professionals, 
but also recognizing we have to have a standby surge or reserve 
capacity for extreme circumstances.
    Mr. Boustany. And that surge capacity ought to come from 
local and the immediate periphery, rather than having people 
flying in from multiple States over, if possible. That way you 
have a little bit more of a team approach.
    Secretary Chertoff. That is true except for one issue. If 
local people are actually caught up in the event, or their 
families are, it is awfully hard to ask them to leave their 
families and get to work. And one of the reasons we do bring 
people from outside is precisely so they are not torn between 
family obligations and professional obligations.
    Mr. Boustany. Thank you.
    Mr. Shuster. Mr. Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman.
    Secretary Chertoff, I listened with interest when you said 
if you talk to the police, they would say you are giving all 
the money to firefighters, and vice versa. On Saturday I was 
meeting with firefighters in my district, volunteer fire 
departments from a 10,000 square mile area, and they are all 
complaining that for their applications for FEMA grants, they 
are told by FEMA that Homeland Security now wants them to 
justify their breathing apparatus, their fire truck equipment, 
response equipment by showing a homeland security connection.
    That is baloney. And I have seen their applications. You 
have got to stop that. That is a colossal waste of energy, 
time, and an affront to our firefighters.
    Secretary Chertoff. Are we talking about Fire Act grants?
    Mr. Oberstar. Fire apparatus.
    Secretary Chertoff. Well, here is the question I have--
    Mr. Oberstar. No, just listen to me, because the Chairman 
says we are on a limited time here.
    I want you to take that and think about it. That is a 
colossal waste.
    Now, on Saturday, August 27th, the National Weather Service 
was reporting a category 4 or 5 hurricane was going to hit New 
Orleans. That day you were at home. You could have, and should 
have, appointed a principal Federal officer or convened, or 
both, the Interagency Management Group. Why did you not?
    Secretary Chertoff. Because we had a team of probably the 
most experienced people in Government in dealing with 
hurricanes sitting around the table at FEMA headquarters at the 
National Response Coordination Center in Washington; because 
those people were following the hurricane for the prior week; 
and because my judgment was that in terms of expertise in 
dealing with the hurricane, recognizing that the issue of a 
hurricane hitting New Orleans has been out there for 20 years, 
that there wasn't another group of people I could convene in 
Washington--
    Mr. Oberstar. And you are saying that they didn't think 
that it was serious enough?
    Secretary Chertoff. No, I am emphatically not saying that. 
I want to be completely clear about this. Everybody--
    Mr. Oberstar. Well, you are just talking, not answering my 
question.
    Secretary Chertoff. I am answering. Here is my answer. The 
President declared an emergency. As a matter of the literal, 
specific language, that created an incident of national 
significance. As to whether I needed to empanel a separate 
group of people to come in for the Incident Management Group, I 
had a group sitting in FEMA managing the incident of the 
senior-most officials, with dozens of years of hurricane 
experience, sitting around the table who, as far as I was 
concerned, were the best people in the Country to anticipate 
everything that was needed in the case of a hurricane.
    Mr. Oberstar. So you are saying that everything was in 
place that needed to be in place at that point?
    Secretary Chertoff. I am telling you that based on what I 
knew at the time, I did not know--and, frankly, I still do not 
know of a better group of people that could have sat around--
    Mr. Oberstar. Oh, well, look, it was a lapse of judgment. 
That is the answer.
    Mr. Shuster. The gentleman's time has expired.
    Mr. Oberstar. Wait a minute, Mr. Chairman. Just a minute, 
now.
    Mr. Shuster. We have gone--
    Mr. Oberstar. The Secretary has plenty of time to sit here 
and listen to us. We have people who are out of their homes,--
    Mr. Shuster. I understand that.
    Mr. Oberstar. People who are dispossessed, and there are 
some questions that they want answers to and I want answers to.
    Mr. Shuster. And he has been answering questions for almost 
three hours, and we have gone through and let people have a 
second round, and I have let people go on beyond that. I have 
great respect for the gentleman from Minnesota, but Mr. Honda 
is going to have the last question. And I am certain that the 
Secretary would answer any questions in writing that need to be 
answered.
    Mr. Oberstar. Well, in writing is not sufficient, and this 
is--
    Mr. Shuster. Well, as I said--
    Mr. Oberstar. This is a serious lapse in this Committee.
    Mr. Shuster. Well, I am sorry you feel that way.
    Mr. Honda, go ahead.
    Mr. Oberstar. No, I am angry about it.
    Mr. Shuster. Mr. Honda?
    Mr. Honda. Thank you, Mr. Chairman, and I will be very 
quick.
    The memo I shared just a while ago from Assistant Attorney 
John Kim says that agencies should be taking care of civil 
rights issues in terms of language and making sure that 
national origin and language, limited English proficient 
communities are taken care of. That didn't appear to be the 
case during Katrina. Will you direct your deputies and your 
directors to make sure this is complied with?
    Secretary Chertoff. Well, I have done that. I have made 
sure that we have a person--I am told we had translators and 
speakers who cover 187 languages, but after Katrina I met with 
the head of our civil rights office and, as we go forward in 
talking about what we do in the next disaster, we have built 
into our process his input to make sure we are doing what we 
need to do to reach out to all communities, including 
appropriate language translation, dealing with people with 
disabilities, and things of that sort.
    Mr. Honda. So you are saying, yes, you will be doing this.
    Secretary Chertoff. Yes. We will be doing what we need to 
do in order to make sure that we have outreach to all 
communities.
    Mr. Honda. Because the reason why there was over 16,000 
folks in Houston was because of the breakdown in language. I 
want to make sure it doesn't happen again. And the indicators 
will be flyers, posters, and those kinds of means of 
communication. You are telling me that those things will be 
done, including personnel?
    Secretary Chertoff. Well, we are committed to making sure 
we comply with these requirements.
    Mr. Honda. I will hold you to that, sir.
    Thank you.
    Mr. Shuster. Thank you, Mr. Honda.
    Mr. Secretary, we really appreciate your coming here before 
us today. This Committee is a serious committee that works to 
make sure we have an issue in front of us, we want to be able 
to communicate with you. Spending your time here today is 
important to us. As we move forward, we are going to continue 
to have a dialogue with you. I am sure Mr. Oberstar has many 
more questions to ask, and, as I said, I am confident you will 
respond to those questions that he has.
    The Chairman has not called you before the Committee before 
because he knows what a big job you have out there, and we want 
to make sure that you are getting things done and not spending 
hours and hours before this Committee. And I appreciate your 
folks have been coming up to the Hill on a regular basis. I met 
with the Under Secretary yesterday, I met with Michael Jackson 
a week ago, so I appreciate your making sure that they are 
available to us for those questions.
    So, again, thank you very much for being here today.
    Secretary Chertoff. I am happy to appear.
    [Whereupon, at 4:20 p.m., the committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 28262.001
    
    [GRAPHIC] [TIFF OMITTED] 28262.002
    
    [GRAPHIC] [TIFF OMITTED] 28262.003
    
    [GRAPHIC] [TIFF OMITTED] 28262.004
    
    [GRAPHIC] [TIFF OMITTED] 28262.005
    
    [GRAPHIC] [TIFF OMITTED] 28262.006
    
    [GRAPHIC] [TIFF OMITTED] 28262.007
    
    [GRAPHIC] [TIFF OMITTED] 28262.008
    
    [GRAPHIC] [TIFF OMITTED] 28262.009
    
    [GRAPHIC] [TIFF OMITTED] 28262.010
    
    [GRAPHIC] [TIFF OMITTED] 28262.011
    
    [GRAPHIC] [TIFF OMITTED] 28262.012
    
    [GRAPHIC] [TIFF OMITTED] 28262.013
    
    [GRAPHIC] [TIFF OMITTED] 28262.014
    
    [GRAPHIC] [TIFF OMITTED] 28262.015
    
    [GRAPHIC] [TIFF OMITTED] 28262.016
    
    [GRAPHIC] [TIFF OMITTED] 28262.017
    
    [GRAPHIC] [TIFF OMITTED] 28262.018
    
    [GRAPHIC] [TIFF OMITTED] 28262.019
    
    [GRAPHIC] [TIFF OMITTED] 28262.020
    
    [GRAPHIC] [TIFF OMITTED] 28262.021
    
    [GRAPHIC] [TIFF OMITTED] 28262.059
    
    [GRAPHIC] [TIFF OMITTED] 28262.060
    
    [GRAPHIC] [TIFF OMITTED] 28262.061
    
    [GRAPHIC] [TIFF OMITTED] 28262.062
    
    [GRAPHIC] [TIFF OMITTED] 28262.063
    
    [GRAPHIC] [TIFF OMITTED] 28262.064
    
    [GRAPHIC] [TIFF OMITTED] 28262.065
    
    [GRAPHIC] [TIFF OMITTED] 28262.066
    
    [GRAPHIC] [TIFF OMITTED] 28262.067
    
    [GRAPHIC] [TIFF OMITTED] 28262.068
    
    [GRAPHIC] [TIFF OMITTED] 28262.069
    
    [GRAPHIC] [TIFF OMITTED] 28262.070
    
    [GRAPHIC] [TIFF OMITTED] 28262.071
    
    [GRAPHIC] [TIFF OMITTED] 28262.072
    
    [GRAPHIC] [TIFF OMITTED] 28262.073
    
    [GRAPHIC] [TIFF OMITTED] 28262.074
    
    [GRAPHIC] [TIFF OMITTED] 28262.075
    
    [GRAPHIC] [TIFF OMITTED] 28262.076
    
    [GRAPHIC] [TIFF OMITTED] 28262.077
    
    [GRAPHIC] [TIFF OMITTED] 28262.078
    
    [GRAPHIC] [TIFF OMITTED] 28262.079
    
    [GRAPHIC] [TIFF OMITTED] 28262.080
    
    [GRAPHIC] [TIFF OMITTED] 28262.081
    
    [GRAPHIC] [TIFF OMITTED] 28262.082
    
    [GRAPHIC] [TIFF OMITTED] 28262.083
    
    [GRAPHIC] [TIFF OMITTED] 28262.084
    
    [GRAPHIC] [TIFF OMITTED] 28262.085
    
    [GRAPHIC] [TIFF OMITTED] 28262.086
    
    [GRAPHIC] [TIFF OMITTED] 28262.087
    
    [GRAPHIC] [TIFF OMITTED] 28262.088
    
                                    

</pre></body></html>
